No.
IN THE
SUPREME COURT OF THE UNITED STATES

WEI-PING ZENG
Petitioner,
v.
TEXAS TECH UNIVERSITY HEALTH SCIENCE CENTER AT EL PASO; PETER
ROTWEIN; RICHARD LANGE; BEVERLEY COURT; REBECCA SALCIDO,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals, Fifth Circuit

APPENDIX

WEI-PING ZENG
3128 Ferguson Road
Huntington, WV 25705
Telephone: (304) 942 8606
Email: weipingzengnv@gmail.com
PRO SE PETITIONER

i

CONTENTS OF APPENDIX

5th Cir. Ct. per curiam opinion

1

5th Cir. Ct. order on petition for rehearing and rehearing en banc

21

5th Cir. Ct. judgment

23

Excerpts of plaintiff-appellant’s brief on appeal to 5th Cir. Ct

24

Excerpts of record on appeal, 5th Cir. Ct

62

Excerpts of plaintiff-appellant’s petition for rehearing and rehearing en banc,
5th Cir. Ct............................................................................................................................

90

Case: 20-50210

Document: 00515631358

Page: 1

Date Filed: 11/09/2020

1

Unite!) States Court of Appeals:
for tfje Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
November 9, 2020

No. 20-50210
Summary Calendar

Lyle W. Cayce
Clerk

Wei-Ping Zeng,
Plaintiff—Appellant,
versus
Texas Tech University Health Science Center
at El Paso;
Peter Rotwein; Richard A. Lange;
Beverley Court; Rebecca Salcido,
Defendants—Appellees.

Appeal from the United States District Court
for the Western District of Texas
No. 3:19-CV-99

Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Texas Tech University Health Science Center at El Paso (“Texas
Tech”) fired Dr. Wei-Ping Zeng when, for several months and without

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this opin­
ion should not be published and is not precedent except under the limited circumstances
set forth in 5th Circuit Rule 47.5.4.

Case: 20-50210

Document: 00515631358

Page: 2

Date Filed: 11/09/2020

2
No. 20-50210

proper authorization, he worked from his West Virginia home instead of the
El Paso lab to which he was assigned. Zeng asserts that his termination was
discriminatory, in violation of both Title VII and the Texas Commission on
Human Rights Act (“TCHRA”), and that it violated his Fourteenth Amend­
ment due process rights. In addition, Zeng puts forth defamation and torti­
ous interference claims. The district court granted defendants’ motion for
summary judgment on all claims. We affirm.
I.
Zeng obtained his Ph.D. in immunology and cell pathology from the
State University of New York at Buffalo, underwent post-doctoral training in
immunology at Yale University, and then entered academia as a faculty mem­
ber at the University of Rochester in 1999. In 2009, Zeng left Rochester to
begin working as an associate professor at Marshall University in West Vir­
ginia, where he was denied tenure in 2016.
On the heels of that denial, Zeng filed a grievance against Marshall and
applied for a research associate position at Texas Tech. He was offered that
position, moved to Texas, and began working under Dr. Haoquon Wu in
2017. Although Zeng rented an El Paso apartment, he retained a house in
West Virginia.
Soon after beginning work in El Paso, Zeng sued Marshall in federal
court in West Virginia. There, as here, Zeng appeared pro se. Needing to be
present for those legal proceedings, and believing that, in any event, he could
work more effectively from home, Zeng asked Wu for permission to work
from West Virginia instead of at the El Paso lab, and Wu acquiesced. At some
point in the ensuing months, Zeng terminated his lease in El Paso and lived
only in West Virginia. He did not tell Wu that he was terminating his El Paso
lease, nor did he inform anyone else at Texas Tech that he was working from
West Virginia in the first place.

2

Case: 20-50210

Document: 00515631358

Page: 3

Date Filed: 11/09/2020

3
No. 20-50210

Thus, solely on Wu’s permission, Zeng worked primarily from West
Virginia from early May until early December 2017. Under Texas Tech’s
work-from-home policy, that’s problematic. Texas Tech’s policy requires
that, to work from home, an employee must attain a signed “Telecommuting
Agreement,” which “must have the approval of the employee’s unit head,
the Dean or Director, the appropriate Department’s Vice President, Human
Resources, and President before it can be implemented. ” Zeng does not con­
test that, although he received permission from Wu, his work-from-home
arrangement was not approved by the other necessary parties. In the absence
of such an agreement, Texas Tech requires that its employees work “only at
the employee’s regular place of business or assigned duty point unless the
employee ... has received prior written authorization of the President,” Dr.
Richard Lange, “or his/her designee.”
In November and December 2017, Texas Tech audited the employees
in Zeng’s department, comparing an employee’s timesheets with the number
of times the employee used his or her access badge to enter the building.
Given that Zeng was in West Virginia at the time, his reported hours worked
did not match the number of times he accessed the building. Specifically, the
audit revealed that, although Zeng recorded normal working hours, he did
not access the building on 119 of the 142 days that he was employed from May
to December. Because the department was not aware of Zeng’s work-fromhome arrangement, that discrepancy understandably raised eyebrows.
Beverly Court, senior director of Zeng’s department, scheduled a
December 19 meeting with Zeng “to discuss Timesheets.” Apparently not
understanding the nature of the meeting, Zeng did not respond to the meet­
ing invitation and did not attend. On December 21, Dr. Peter Rotwein, the
chair of Zeng’s department, emailed Wu to inform him of the situation. Wu,
who was visiting China at the time, responded on January 7, explaining that
Zeng was involved in a lawsuit and that Wu had authorized him to “work at

3

Case: 20-50210

Document: 00515631358

Page: 4

Date Filed: 11 /09/2020

4
No. 20-50210

home for a while. ”
On January 8, 2018, Court sent Zeng another meeting request and an
email, this time requesting Zeng to “confirm [he] received [the] email and
will be available to meet.” Zeng replied, informing Court that he was “not
in El Paso” but would “try to come back as soon as possible.” Court re­
sponded the next day, asking when he “plan[ned] to be at work so [they
could] meet.” Zeng vaguely replied that he would let her know when he
returned and told her that “ [t]here is something I have to deal with now, but
I will come back as soon as I can. ” Later that day Rotwein emailed Zeng,
informing him of the discrepancies revealed in the audit, that he was in vio­
lation of Texas Tech’s work-from-home policy, and requesting that he pro­
vide a record of the work performed when he was not in the office. Zeng sent
Rotwein a summary of that work on January 11, as requested.
On January 12, Court emailed Zeng again, this time informing him that
he was being placed on leave without pay. A week later, Rotwein sent Lange
an email explaining the situation and “requesting] termination of Dr. Zeng’s
appointment for cause.” About a week after that, Court emailed Zeng with
an attached letter informing him that his employment was terminated effec­
tive January 22.
Zeng sued in state court, and the defendants removed to federal court
on the basis of federal question and supplemental jurisdiction. In his second
amended complaint, Zeng alleged discrimination under Title VII, the
TCHRA, and 42 U.S.C. § 1981, violation of his Fourteenth Amendment due
process rights, tortious interference, and defamation. Both sides sought
summary judgment. The district court granted defendants’ motion for sum­
mary judgment in full and dismissed all claims. Zeng appeals. We affirm.

4

Case: 20-50210

Document: 00515631358

Page: 5

Date Filed: 11/09/2020

5
No. 20-50210

II.
A.
Zeng first asserts that his firing was discriminatory, in violation of both
federal and state law.1 As an initial matter, we disagree with the district court
that Zeng’s TCHRA claims are barred by sovereign immunity. “[A] State
waives [sovereign] immunity when it removes a case from state court to fed­
eral court.” Lapides v. Ed. ofRegents ofUniv. Sys. ofGa., 535 U.S. 613, 61819, 624 (2002). This maxim is in “the context of state-law claims, in respect
to which the State has explicitly waived sovereign immunity from state-court
proceedings.” Id. at 617.
To be sure, “the Constitution permits and protects a state’s right to
relinquish its immunity from suit while retaining its immunity from liability
....” Meyers ex rel. Benzing v. Texas, 410 F.3d 236, 255 (5th Cir. 2005).
Thus, a state may waive its immunity from suit through removal and simul­
taneously retain its immunity from liability.
But that is not the case here. The TCHRA waives Texas’s sovereign
immunity from state-court proceedings. Mission Consol. Indep. Sch. Dist. v.
Garcia, 253 S.W.3d 653, 660 (Tex. 2008). And although the TCHRA does
not “waive sovereign immunity [from suit] in federal court,”2 the defendants
have done that through removal. Lapides, 535 U.S. at 624.

1 Zeng asserts claims under Title VII (race and nationality), 42 U.S.C. § 1981, and
the TCHRA. “Because these three statutory bases are functionally identical for the
purposes of [Zeng’s] claims, it would be redundant to refer to all of them.” Shackleford v.
Deloitte & Touche, LLP, 190 F.3d 398, 403 n.2 (5th Cir. 1999). Thus, although we dismiss
several claims on technical grounds, the substantive analysis would apply to all claims even
if they remained viable.
2 Perez v. Region 20 Educ. Serv. Ctr., 307 F.3d 318, 332 (5th Cir. 2002); see also
Pequeno v. Univ. of Tex. at Brownsville, 718 F. App’x 237,241 (5th Cir. 2018) (applying Perez
to the TCHRA).

5

Case: 20-50210

Document: 00515631358

Page: 6

Date Filed: 11/09/2020

6
No. 20-50210

Put another way, defendants do not enjoy “immunity from liability”
because the TCHRA waived it. Meyers, 410 F.3d at 255. And defendants no
longer enjoy “immunity from suit” because they waived it by removal. Id.\
see also Lapides, 535 U.S. at 624. Thus, defendants waived sovereign immun­
ity for the TCHRA claims in this case.3
Although there is no sovereign immunity, under the TCHRA only
“ employers may be liable for an unlawful employment practice. The Act does
not create a cause of action against supervisors or individual employees.”
Anderson v. Hous. Cmty. Coll. Sys., 458 S.W.3d 633 (Tex. App.—Houston [1st
Dist.] 2015, no pet.) (cleaned up). Similarly, although Congress abrogated
sovereign immunity for state actors in Title VII, Fitzpatrick v. Bitzer, 427 U.S.
445,447-48 (1976), a plaintiff cannot sue both an employer and its employees
in their official capacity under Title VII. To do so would subject the em­
ployer to double liability, because “a Title VII suit against an employee is
actually a suit against the corporation. ” Indest v. Freeman Decorating, Inc.,
164 F.3d 258, 262 (5th Cir. 1999). Thus, because Zeng opts to sue Texas
Tech under Title VII and the TCHRA, he may not simultaneously sue the
individual defendants.
So, where does that leave us? After we knock out the improper claims
and revive the TCHRA claim, Zeng retains three operable discrimination

3 None of the cases on which the district court or defendants rely is in conflict with
that conclusion. Those cases involve instances in which the (1) the plaintiff raised waiverby-removal argument for the first time on appeal and thus waived the argument itself, Perez,
307 F.3d at 331-32, (2) the plaintiff sued in federal court in the first instance and there was
no waiver-by-removal argument to be made, Pequeno, 718 F. App’x at 240-41, or (3) the
plaintiff averred that “removal waives immunity entirely” and attempted to rely on
removal alone to waive immunity from both suit and liability, Skinner v. Gragg,
650 F. App’x 214, 218 (5th Cir. 2016) (per curiam). Meyers did not reach the question of
whether the state “retained a separate immunity from liability... according to [the] state’s
law.” Meyers, 410 F.3d at 255.

6

Case: 20-50210

Document: 00515631358

Page: 7

Date Filed: 11/09/2020

7
No. 20-50210

causes of action. He asserts Title VII and TCHRA discrimination claims
against Texas Tech. Additionally, he maintains § 1981 claims against the
individual defendants. Because those “three statutory bases are functionally
identical for the purposes of [Zeng’s] claims,” our analysis below is sufficient
to dispose of all claims together. Shackleford, 190 F.3d at 403 n.2.
For cases of intentional discrimination based on circumstantial evi­
dence, such as this one, we apply the familiar McDonnell-Douglas burdenshifting framework.4 Under that framework, a plaintiff must first establish a
prima facie case of discrimination, which requires him to show that “ (1) he is
a member of a protected class, (2) he was qualified for the position at issue,
(3) he was the subject of an adverse employment action, and (4) he was
treated less favorably because of his membership in that protected class than
were other similarly situated employees who were not members of the
protected class, under nearly identical circumstances. ” Lee v. Kan. City S.
Ry. Co., 574 F.3d 253, 259 (5th Cir. 2009).
If the plaintiff establishes a prima facie case, the burden of production
“shifts to the employer to articulate a legitimate, nondiscriminatory or nonretaliatory reason for its employment action. ” McCoy, 492 F.3d at 557. If the
employer is able to do so, then the burden shifts back to the plaintiff to show
“that the employer’s proffered reason is not true but instead is a pretext for
the real discriminatory or retaliatory purpose.” Id. Because Zeng fails to
make out aprima facie case of discrimination, we need not determine whether
his violation of company policy provided a legitimate, nondiscriminatory
reason for Texas Tech’s employment decision.
Nobody contests that Zeng is a member of a protected class or that he

4 McCoy v. City of Shreveport, 492 F.3d 551, 556 (5th Cir. 2007) (per curiam); see
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802-04 (1973).

7

Case: 20-50210

Document: 00515631358

Page: 8

Date Filed: 11/09/2020

8
No. 20-50210

was the subject of an adverse employment action. Instead, defendants assert
that Zeng fails to make his primafacie case because he fails to offer evidence
demonstrating that he was qualified for the position, and, even if he was, he
was not treated less favorably than others under nearly identical circum­
stances. We assume that Zeng, as a Ph.D. in immunology, was qualified for
the research assistant position. Our focus is instead on the fourth prima facie
requirement—whether Zeng was treated unfavorably because of his pro­
tected status. He wasn’t.
Zeng’s prima facie case turns on whether the other employees that he
identifies as comparators were similarly situated to him. Lee, 574 F.3d at 259.
We construe “similarly situated narrowly, requiring the employees’ situa­
tions to be nearly identical.” West v. City ofHous., 960 F.3d 736, 740 (5th
Cir. 2020) (quotation omitted). “[EJmployees who have different work re­
sponsibilities or who are subjected to adverse employment action for dis­
similar violations are not similarly situated.” Lee, 574 F.3d at 259-60. More­
over, “the conduct the employer points to as the reason for the firing must
have been ‘nearly identical’ to ‘that of the proffered comparator who alleg­
edly drew dissimilar employment decisions. > >5 Garcia v. Prof}l Contract
Servs.j Inc., 938 F.3d 236, 244 (5th Cir. 2019) (quoting Lee, 574 F.3d at 260).
Zeng points to three groups as comparators: (1) Alexa Montoya and
Christopher Lopez; (2) eleven other “employees with serious policy viola­
tions [who] were not terminated”; and (3) a final group of employees, all of
whom were terminated but, according to Zeng, received “multiple oppor­
tunities and assistance to correct their behaviors prior to termination.” We
address each in turn.
We begin with Montoya and Lopez. Both of them worked in Zeng’s
department and, like Zeng, reported work hours that did not match their
access badge data. Montoya reported normal working hours on 83 days when

8

Case: 20-50210

Document: 00515631358

Page: 9

Date Filed: 11/09/2020

9
No. 20-50210

she did not use her badge to access the building, and Lopez reported normal
working hours on 24 days when he did not use his badge to access the build­
ing. But that resemblance aside, those two are not similarly situated to Zeng.
As an initial matter, both Montoya and Lopez cooperated with Court
and others at Texas Tech to resolve the issue once the discrepancies were
brought to light. Zeng, on the other hand, was given multiple opportunities
to meet with Court to discuss his situation. On each occasion, Zeng either
declined the opportunity or failed to respond at all. Therefore, even if Mon­
toya’s or Lopez’s initial violations were “nearly identical” to Zeng’s, the
totality of their conduct was not.s
In any event, the violations were not themselves “nearly identical.”
First, Montoya’s and Lopez’s absences were less severe than Zeng’s 119-day
absence. Additionally, those absences were based on conduct distinct from
Zeng’s. Montoya, for example, told her supervisor that she was unable to
swipe her badge to enter the building because her badge was not authorized
for the proper times. Instead, although her badge data did not reflect it, Mon­
toya maintained that she was in the building at the reported times after being
let in by others coming and going. Similarly, Lopez informed Court that he
failed to swipe his badge on occasion because “he was often walking into work
as people were leaving and did not need to use his card to gain access to the
building. ”
Thus, the violations by Lopez and Montoya were not “nearly identi­
cal” to Zeng’s. To be sure, the violations were discovered by the same pro-

5 See Lee, 574 F.3d at 260 (“If the ‘difference between the plaintiff’s conduct and
that of those alleged to be similarly situated accountsfor the difference in treatment received
from the employer, ’ the employees are not similarly situated for the purposes of an employ­
ment discrimination analysis.” (quoting Wallace v. MethodistHosp. Sys., 271 F.3d 212, 221
(5th Cir. 2001))).

9

Case: 20-50210

Document: 00515631358

Page: 10

Date Filed: 11/09/2020

10
No. 20-50210

cess: the internal audit. But the nature of the violations themselves—
improper use of the access badge as distinguished from working remotely
from West Virginia without proper authorization—is patently different.
Next, Zeng points to a group of employees that violated Texas Tech’s
policies but were not terminated. That collection of employees includes a
billing associate, two clinical assistants, a senior medical secretary, a research
administrator, and a mechanic (among other similarly disparate positions).
The violations themselves are just as dissimilar, ranging from tardiness to
sexual harassment. The only discernable commonalities in the group is that
they worked for Texas Tech, were somewhere below Lange in the chain-ofcommand, violated some rule at some point during their employment, and
were not fired for that violation. Zeng doesn’t assert that they shared “the
same job or responsibilities” or had “comparable violation histories. ” West,
960 F.3d at 740. Therefore, we agree with the district court that they were
not similarly situated to Zeng.
Finally, Zeng offers a group of thirteen employees who were termin­
ated under Lange but, unlike Zeng, “were offered multiple opportunities and
assistance to correct their behaviors prior to termination. ” Like the previous
group, this diverse bunch includes a wide array of positions, including a
coding and reimbursement specialist, a patient services specialist, and a sen­
ior business assistant. And, again like the previous group, the violations range
broadly. It is true that the employees on that list received multiple “strikes”
before being fired. But because all of them had “different work responsibili­
ties” and were “subjected to adverse employment action[s] for dissimilar
violations,” that is inapposite. Leey 574 F.3d at 259-60.
Zeng fails to demonstrate that “he was treated less favorably because
of his membership in [a] protected class than were other similarly situated
employees who were not members of the protected class, under nearly iden-

10

Case: 20-50210

Document: 00515631358

Page: 11

Date Filed: 11/09/2020

11
No. 20-50210

deal circumstances.” Id. at 259. Therefore, he fails to make hisprima facie
case of discrimination under the McDonnell-Douglas framework. We affirm
summary judgment on the discrimination claims.
B.
Zeng asserts, under 42 U.S.C. § 1983, that defendants deprived him
of a property and liberty interest without adequate procedure, violating his
Fourteenth Amendment due process rights. But because Zeng was not
deprived of a protected property or liberty interest, he was not owed any
constitutional due process.
“The first inquiry in every due process challenge is whether the plain­
tiff has been deprived of a protected interest in ‘property’ or ‘liberty.’ Only
after finding the deprivation of a protected interest do we look to see if the
State’s procedures comport with due process.” Am. Mfrs. Mut. Ins. Co. v.
Sullivan, 526 U.S. 40, 59 (1999) (citations omitted). In the context of
employment, a property interest arises “only when a legitimate right to con­
tinued employment exists.” McDonald v. City of Corinth, 102 F.3d 152,155
(5th Cir. 1996). A liberty interest arises “only when the employee is dis­
charged in a manner that creates a false and defamatory impression about
him. ” Bledsoe v. City ofHorn Lake, 449 F.3d 650,653 (5th Cir. 2006) (cleaned
up). We address the two interests in turn.
1.

“State law controls the analysis of whether [an employee] has a prop­
erty interest in his employment.” McDonald, 102 F.3d at 155. In Texas, an
at-will employment state, “employment may be terminated by the employer
or the employee at will, for good cause, bad cause, or no cause at all.” Mont­
gomery Cty. Hosp. Dist. v. Brown, 965 S.W.2d 501, 502 (Tex. 1998). There­
fore, to establish a property interest—“a legitimate right to continued
employment”—an employee must show that the at-will presumption has

ll

Case: 20-50210

Document: 00515631358

Page: 12

Date Filed: 11/09/2020

12
No. 20-50210

been altered. McDonald, 102 F.3d at 155; see also Muncy v. City ofDall.,
335 F.3d 394, 398 (5th Cir. 2003).
That presumption can be changed by “a specific agreement to the
contrary.” Brown, 965 S.W.2d at 502. To do so, “the employer must un­
equivocally indicate a definite intent to be bound not to terminate the em­
ployee except under clearly specified circumstances... . An employee who
has no formal agreement with his employer cannot construct one out of
indefinite comments, encouragements, or assurances.” Id.
Zeng signed an “Employment Acknowledgment” form that explicitly
stated “a contract was not being offered” and “all employment at the Texas
Tech University Health Sciences Center is employment-at-will.” To estab­
lish a property interest, then, that status must have been modified. To that
end, Zeng asserts that he and Wu formed a “definitive understanding” that
he “would have continued employment.” We disagree.
To support his position, Zeng asserts little more than conclusory
statements that an understanding existed. He points first to two discussions
with Wu regarding the stability of the position based on research-grant
funding. He then speculates that Wu did not intend to fire him and, there­
fore, there was an understanding between the two. None of these instances
“unequivocally indicate[s] a definite intent to be bound not to terminate the
employee except under clearly specified circumstances. ” Brown, 965 S.W.2d
at 502.
As an initial matter, the first set of conversations on which Zeng relies
took place in the interview phase, i.e., before he signed the employment
acknowledgment that expressly stated his employment was at-will. Those
discussions could not have modified an employment arrangement that did
not yet exist.
Irrespective of when the conversations occurred, Zeng can point to no

12

Case: 20-50210

Document: 00515631358

Page: 13

Date Filed: 11/09/2020

13
No. 20-50210

“expressed” or “clear and specific” agreement to modify his employment
from at-will. El Expreso, Inc. v. Zendejas, 193 S.W.3d 590, 594 (Tex. App.—
Houston [1st Dist.] 2006, no pet.) (quotation omitted). The best he can do
is state that Wu told him there was sufficient funding to sustain the position
for several years. At most, Wu’s statements regarding the stability of funding
were “indefinite ... assurances.” Brown, 965 S.W.2d at 502.
Moreover, whether Wu intended to fire Zeng is irrelevant. That a
supervisor does not intend to fire an employee does not compel the con­
clusion that he or she is “bound not to terminate the employee ... . ” Brown,
965 S.W.2d at 502. It shows only that the supervisor does not wish to do so,
not that he or she could not do so if desired.
Zeng was hired as an at-will employee. Nothing changed that. He had
no “legitimate right to continued employment” and, therefore, no protected
Fourteenth Amendment property interest. McDonald, 102 F.3d at 155.
2.

Zeng asserts that his termination infringed on a liberty interest, which,
like property interests, can trigger procedural due process rights. When “the
government discharges an employee amidst allegations of misconduct, the
employee may have a procedural due process right to notice and an oppor­
tunity to clear his name. ” Bledsoe, 449 F.3d at 653. Those rights are triggered
“only when the employee is discharged in a manner that creates a false and
defamatory impression about him and thus stigmatizes him and forecloses
him from other employment opportunities.” Id. (quotation omitted).
We employ a seven-element “stigma-plus-infringement” test to de­
termine whether a government employee is entitled to a remedy under
§ 1983. Id. Zeng must demonstrate that “(1) he was discharged; (2) stig­
matizing charges were made against him in connection with the discharge;
(3) the charges were false; (4) he was not provided notice or an opportunity

13

Case: 20-50210

Document: 00515631358

Page: 14

Date Filed: 11/09/2020

14
No. 20-50210

to be heard prior to the discharge; (5) the charges were made public; (6) he
requested a hearing to clear his name; and (7) the employer denied the
request. ” Id. He cannot do so.
To the extent that Zeng reasserts his argument made in the district
court that Texas Tech infringed on his liberty interests by classifying his
termination as for “misconduct,” that claim fails here as it did there. It is
undisputed that Zeng violated Texas Tech policy when he worked from
West Virginia. He fails element three, then, because the “charges were [not]
false. ” Id.
Zeng also claims that Texas Tech’s determination to designate him as
not eligible for rehire (“NEFR”) was “both adverse and stigmatizing” and,
therefore, infringed his liberty interest. That assertion fails for several rea­
sons. The meaning of an NEFR designation is published in the Texas Tech
University System regulations. There, it states the criteria for NEFR: “The
individual engaged in behavior that constitutes serious misconduct including
but not limited to fraud, theft, violence/threat of violence, alcohol/drug pol­
icy violation, moral turpitude, sexual misconduct, or other conduct demon­
strating unfitness for employment. ” Because Zeng was fired for misconduct,
he “engaged in ... conduct demonstrating unfitness for employment,” and
it fails Bledosoe’s third element. Id.
Moreover, Zeng provides no evidence that the “the charges were
made public.” Id.6 To be sure, the NEFR designation was disclosed to a
reference-check company that was hired at Zeng’s behest. But because
“there is no liability when ... the plaintiff cause[s] [the charges] to be made

6 As described above, the meaning of an NEFR designation is publicly available.
But Zeng’s NEFR designation, not what that designation generally means, is what must
have been “made public.” Bledsoe, 449 F.3d at 653.

14

Case: 20-50210

Document: 00515631358

Page: 15

Date Filed: 11/09/2020

15
No. 20-50210

public,” that is insufficient. Hughes v. City of Garland, 204 F.3d 223, 228
(5th Cir. 2000) (quotation omitted). Zeng can point to no other instances in
which the NEFR designation was made public. Therefore, his assertion also
fails Bledsoe's fifth element. Bledsoe, 449 F.3d at 653.
Because Zeng did not have a property interest in continued employ­
ment, and because he cannot show that his termination infringed on a liberty
interest, he was not deprived of any procedural due process rights. There­
fore, we affirm summary judgment on his § 1983 claims.
C.

Zeng puts forth defamation and tortious interference claims under
Texas tort law. He posits that the individual defendants defamed him by
labelling him as terminated for misconduct and NEFR. He further contends
that those labels were communicated to prospective employers, committing
tortious interference with prospective employment.
These claims border on frivolity. Substantively, Zeng cannot show
that Texas Tech published a false statement, which is a required element of
defamation. In re Lipsky, 460 S.W.3d 579, 593 (Tex. 2015). As explained
above, the alleged defamatory statements were not false, nor did Texas Tech
make them public. Neither can Zeng demonstrate that Texas Tech’s actions
were “independently tortious or unlawful,” an element of a tortious interfer­
ence claim. Coinmach Corp. v. Aspenwood Apartment Corp., 417 S.W.3d 909,
923 (Tex. 2013). And, in any event, the claims are barred by sovereign
immunity.
The Texas Tort Claims Act (“TTCA”) provides a “limited waiver of
[sovereign] immunity for certain suits.” Garcia, 253 S.W.3d at 655. Recov­
ery against a government employee is barred “when suit is filed against an
employee whose conduct was within the scope of his or her employment and
the suit could have been brought against the governmental unit. ” Id. at 657

15

Case: 20-50210

Document: 00515631358

Page: 16

Date Filed: 11/09/2020

16
No. 20-50210

(citingTex. Civ. Prac. & Rem. Code § 101.106(f)). Thus, Zengseeks
to avoid sovereign immunity by claiming that defendants’ conduct was not
within the scope of their employment or was otherwise ultra vires.
To be within the scope of employment, there must be “a connection
between the employee’s job duties and the alleged tortious conduct.” Laverie v. Wetherbe, 517 S.W.3d 748, 753 (Tex. 2017). That connection may be
satisfied “even if the employee performs negligently or is motivated by ulter­
ior motives or personal animus so long as the conduct itself was pursuant to
her job responsibilities.” Id. The district court found, and Zeng now seem­
ingly concedes, that “there is a clear connection between the conduct at issue
in [Zeng’s] tort claims—essentially, how the Individual Defendants categor­
ized and decided his termination—and the Individual Defendants’ job duties
as administrators of [his] workplace.” We agree.
“To fall within th[e] ultra vires exception, a suit must not complain of
a government officer’s exercise of discretion, but rather must allege, and
ultimately prove, that the officer acted without legal authority or failed to
perform a purely ministerial act.” City of El Paso v. Heinrich, 284 S.W.3d
366, 372 (Tex. 2009). Acting “without legal authority” means that the gov­
ernment actor must have “violated statutory or constitutional provisions.”
Lazarides v. Farris, 367 S.W.3d 788, 800 (Tex. App.—Houston [14th Dist.]
2012, no pet.). Zeng alleges only violations of Texas Tech policy, not “stat­
utory or constitutional provisions.” Id.1 Therefore, that assertion is insuffi-

7 We recognize that because Texas Tech is a state university, some of its policies—
those promulgated by the Board of Regents—may “have the same force as an enactment
of the legislature” for purposes of waiving sovereign immunity. Hall v. McRaven,
508 S.W.3d 232,235 (Tex. 2017). But not every university policy meets that criterion. See
Univ. ofHous. v. Barth, 403 S.W.3d 851, 856 (Tex. 2013). Because Zeng provides “no evi­
dence that the [relevant policy was] enacted by the Board of Regents,” those policies are
not “law” for purposes of the ultra vires or purely-ministerial-act exceptions to sovereign

16

Case: 20-50210

Document: 00515631358

Page: 17

Date Filed: 11/09/2020

17
No. 20-50210

cient to sustain a claim under the ultra vires exception.
Purely “ [ministerial acts are those where the law prescribes and
defines the duties to be performed with such precision and certainty as to
leave nothing to the exercise of discretion or judgment.” Sw. Bell Tel.} L.P.
v. Emmett, 459 S.W.3d 578, 587 (Tex. 2015) (quotation omitted). Again,
Zeng asserts only duties imposed by Texas Tech policy, not law. Therefore,
he can demonstrate no failure to perform purely ministerial acts on behalf of
the defendants.
In sum, Zeng’s tort claims are barred by sovereign immunity under
the TTCA. Even if they weren’t, his substantive arguments lack merit. We
affirm the summary judgment in favor of the individual defendants on the
tort claims.
D.
Zeng appeals the denial of his motion for supplemental discovery.
Rule 56(d) of the Federal Rules of Civil Procedure states that, following a
motion for summary judgment, if the nonmoving party “shows ... that, for
specified reasons, it cannot present facts essential to justify its opposition,
the court may” permit additional discovery. Fed. R. Civ. P. 56(d). “We
review a district court’s denial of a Rule 56(d) motion for abuse of discre­
tion.” Am. Family Life Assurance Co. of Columbus v. Biles, 714 F.3d 887, 894
(5th Cir. 2013) (per curiam). We find none.
Motions for additional discovery under Rule 56(d) are “broadly
favored and should be liberally granted because the rule is designed to safe­
guard nonmoving parties from summary judgment motions that they cannot

immunity. Id. at 855-57.

17

Case: 20-50210

Document: 00515631358

Page: 18

Date Filed: 11/09/2020

18
No. 20-50210

adequately oppose.” Raby v. Livingston, 600 F.3d 552, 561 (5th Cir. 2010)
(quotation omitted). Even still, the nonmoving party must demonstrate
“how the emergent facts, if adduced, will influence the outcome of the pend­
ing summary judgment motion.” Biles, 714 F.3d at 894 (quotation omitted).
Therefore, “we generally assess whether the evidence requested would
affect the outcome of a summary judgment motion.” Smith v. Reg}l Transit
Auth., 827 F.3d 412, 423 (5th Cir. 2016).
Zeng sought to discover Montoya’s and Lopez’s “timesheets and the
records of [their] access card use” for an additional period of time. Accord­
ing to Zeng, “[i]n order to assess the seriousness” of their violations for the
purposes of establishing that he was similarly situated to them, it was
“important to know how many claimed workdays without access card use”
they had accrued.8 As explained above, however, the number of claimed
workdays without access card use—even if equal to or greater than Zeng’s
119-day absence—would not make Montoya or Lopez similarly situated to
him. The violations themselves are different. One is the improper use of an
access badge; the other is working from another part of the country without
proper authorization.
Because the additional discovery would not have “affect[ed] the
outcome of [the] summary judgment motion,” the district court did not
abuse its discretion in denying the motion. Id.
E.
Zeng appeals the denial of his motion for sanctions for spoliation of

8 On appeal, Zeng recharacterizes the aims of his motion. He now intimates that
additional discovery may somehow have uncovered that Montoya and Lopez were not
working at all, rather than only failing to use their access badges. Because the additional
discovery that Zeng sought would not have uncovered that information, we need not
address its relevance.

18

Case: 20-50210

Document: 00515631358

Page: 19

Date Filed: 11/09/2020

19
No. 20-50210

evidence. He asserts that Texas Tech deleted his work email account history
in violation of its duty to preserve evidence. The district court determined
that the motion failed because Zeng could not make the requisite showing of
bad faith. We review that decision for abuse of discretion. Guzman v. Jones,
804 F.3d 707, 713 (5th Cir. 2015). Once again, we find none.
“Spoliation of evidence is the destruction or the significant and mean­
ingful alteration of evidence.” Id. (quotation omitted). When that occurs,
we permit an “adverse inference” against the offending party “only upon a
showing of ‘bad faith’ or ‘bad conduct.’ ” Id. (quoting Condrey v. SunTrust
Bank of Ga., 431 F.3d 191, 203 (5th Cir. 2005)). The duty to preserve
evidence attaches only “when the party has notice that the evidence is rele­
vant to the litigation or should have known that the evidence may be rele­
vant.” Id.
It is uncontested that the emails were deleted on March 3, 2018.9 The
only evidence Zeng posits may have placed Texas Tech on notice of the liti­
gation before that date is a complaint sent to Rotwein and an exchange of
emails with Salcido and Lange. Zeng sent Rotwein a letter expressing his
regret that he had been terminated, explaining the stain the termination
would have on his “career record,” stating that the decision would “reflect
poorly on the university,” and asking Rotwein to reconsider. He then for­
warded that letter to Rebecca Salcido and Lange.
Nothing in that letter could be construed as placing Texas Tech on
notice that Zeng would even file suit, much less that his emails would be
relevant to that litigation. Never was there a mention of discrimination or

9 It appears that the emails were deleted per a general Texas Tech policy, under
which emails are deleted ninety days after an employee is terminated. That factual asser­
tion was uncontested until Zeng now claims that “no such policy was produced.” Even if
there was no policy in place, both sides agree that the emails were deleted on March 3.

19

Case: 20-50210

Document: 00515631358

Page: 20

Date Filed: 11/09/2020

20
No. 20-50210

procedural failures, nor the slightest intimation of further action. The district
court did not abuse its discretion when it determined that Texas Tech did not
act in bad faith when it deleted Zeng’s emails.
*

*

*

Zeng broke the rules, his employer found out, and he got fired. That
may be disappointing to him, but that doesn’t make it illegal. The summary
judgment is AFFIRMED.

20

Case: 20-50210

Document: 00515673533

Page: 1

Date Filed: 12/15/2020

21

fHntteb States Court of Appeals;
for tfjr Jftftf) Circuit
No. 20-50210

Wei-Ping Zeng
Plaintiff—Appellant,
versus
Texas Tech University Health Science Center
at El Paso; Peter Rotwein; Richard A. Lange; Beverley
Court; Rebecca Salcido,
Defendants—Appellees.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 3:19-CV-99

ON PETITION FOR REHEARING
AND REHEARING EN BANC
(Opinion 2020 U.S. App. LEXIS 35309 (5th Cir. Nov. 9, 2020))
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:
The petition for rehearing is DENIED. No member of the panel or
judge in regular active service having requested that the court be polled on
rehearing en banc (Fed. R. App. P. 35; 5th Cir. R. 35), the petition for
rehearing en banc is DENIED.

Case: 20-50210

Document: 00515683879

Page: 1

Date Filed: 12/23/2020

22

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

December 23, 2020

Ms. Jeannette Clack
Western District of Texas, El Paso
United States District Court
525 Magoffin Avenue
Room 108
El Paso, TX 79901-0000
No. 20-50210

Zeng v. TX Tech Univ Hlth Sci Ctr at E
USDC No. 3:19-CV-99

Dear Ms. Clack,
Enclosed is a copy of the judgment issued as the mandate and a
copy of the court's opinion.

Sincerely,
LYLE W. CAYCE, Clerk
By:
Casey A. Sullivan, Deputy Clerk
504-310-7642
cc:
Ms. Rola Daaboul
Mr. Wei-Ping Zeng

Case: 20-50210

Document: 00515683867

Page: 1

Date Filed: 12/23/2020

23

e <•

-■ -|

fHmteti States Court of Appeals!
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

Certified as a true copy and Issued
as the mandate on Dec 23.2020

A”“'
;d^ wf
cwF
Oerls, UlS. CI
of Appeals, Fifth Circuit

FILED

No. 20-50210
Summary Calendar

November 9, 2020

mii

Lyle W. Cayce
Clerk

Wei-Ping Zeng
Plaintiff—Appellant,
versus
Texas Tech University Health Science Center at El
Paso; Peter Rotwein; Richard A. Lange; Beverley
Court; Rebecca Salcido,
Defendants—Appellees.

Appeal from the United States District Court
for the Western District of Texas
No. 3:19-CV-99

Before King, Smith, and Wilson, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page lot49

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
EL PASO DIVISION
WEI-PING ZENG,

§
§
§
§

Plaintiff,
v.

§

TEXAS TECH UNIVERSITY
HEALTH SCIENCE CENTER AT EL
PASO, PETER ROTWEIN, RICHARD
A. LANGE, BEVERLEY COURT, and
REBECCA SALCIDO,
Defendants.
(

EP-19-CV-99-KC

§
§
§
§
§
§
§
§

ORDER

On this day, the Court considered Defendants Texas Tech University Health Science
Center at El Paso (“TTUHSCEP”) and Peter Rotwein, Richard Lange, Beverley Court, and
Rebecca Salcido’s (“Individual Defendants”) Motion for Summary Judgment, ECF No. 108;
Plaintiff Wei-Ping Zeng’s Response in Opposition, ECF No. 121; and Defendants’ Reply, ECF
No. 125. The Court also considered Plaintiffs Motion for Summary Judgment, ECF No. 113;
Defendants’ Response in Opposition, ECF No. 122; and Plaintiffs Reply, ECF No. 133. For the
reasons that follow, Defendants’ Motion is GRANTED and Plaintiffs Motion is DENIED.

I.

BACKGROUND
The following facts are undisputed,1 unless otherwise noted.

1 Pursuant to the Court’s Standing Order Regarding Motions for Summary Judgment, the parties each
submitted a list of “Proposed Undisputed Facts,” setting forth the facts on which, they contend, there are no genuine
issues to be tried. The parties also submitted, pursuant to the Standing Order, a “Response to Proposed Undisputed
Facts.” The responses must state whether each of the opposing party’s proposed facts are admitted or denied, with
any denials followed by a citation to specific evidence in the record that shows the fact is genuinely disputed.
Plaintiffs Response “denies” many proposed undisputed facts as “irrelevant,” or “to the extent that” Defendants rely
on the fact to “suggest” various legal conclusions. See Pl.’s Resp. to Defs.’ Proposed Undisputed Facts, ECF No.
121-1. The Court notes that, in the Background section, it relies on some facts which Plaintiff “denies” in this
1

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 2 of 49

Plaintiff brings this employment discrimination case pro se. Plaintiff, an immunologist,
is of Asian race and Chinese nationality. Pl.’s Proposed Undisputed Facts in Support of Mot. for
Summ. J. (“Plaintiffs PUF”) f 1, ECF No. 113-69; Defs.’ Proposed Undisputed Facts in Support
of Mot. for Summ. J. (“Defendants’ PUF”) f 1, ECF No. 108-9.2 Plaintiff first came to the
United States as a Ph.D. student in 1991, and eventually obtained his doctorate, completed
postdoctoral training, and began working in academia—becoming a naturalized U,S. citizen in
2007 along the way. Pl.’s PUF

1, 4. In 2009, Plaintiff began working as an associate

professor at Marshall University in West Virginia. Def.’s PUF If 4.
Plaintiff was eventually denied tenure at Marshall in 2016. Id. ^ 6. Afterwards, in late
2016, Plaintiff applied for a position as a research associate for Dr. Haoquan Wu in
TTUHSCEP’s Center of Emphasis in Infectious Diseases, which operates within the Department
of Biomedical Sciences. Pl.’s PUF ^f 10; Defs.’ PUF ^f 8. Plaintiff was hired by Dr. Wu in
January 2017, with a start date of March 1, 2017. Pl.’s PUF H 11; Defs.’ PUF f 9. Plaintiff
began working in Dr. Wu’s lab on research projects concerning ZIKA, HIV, and EV71 viruses.

manner without effectively establishing a genuine dispute. The Court does not rely on proposed facts which either
party denies and shows to be genuinely disputed by a specific citation to evidence in the record.
2 The parties raise objections to portions of the summary judgment evidence. Defendants object to some of
Plaintiffs exhibits—spreadsheets, generated by Plaintiff, summarizing the evidence—as “not properly authenticated
summaries of what Plaintiff purports them to be.” Defs.’ Resp. in Opposition to Pl.’s Mot. for Summ. J. 2, ECF
No. 122. Defendants also object to several exhibits because “Plaintiff failed to produce them to Defendants prior to
the close of discovery.” Id. Because, even relying on this evidence, Defendants’ Motion is granted, the objections
are overruled as moot. Defendants further object to all of Plaintiff s exhibits as improperly authenticated under
Federal Rules of Evidence Rule 901. Id. The Court overrules this objection.
Plaintiff also moves to strike portions of Defendants’ summary judgment evidence. Pl.’s Mot. to Partially
Strike Defs.’ Affs. & Exs., ECF No. 140. Because Plaintiffs arguments ultimately go to the truthfulness and
credibility of the evidence, as opposed to admissibility, see App. to Pl.’s Mot. to Strike, ECF No. 140-1, the Court
denies Plaintiffs Motion. See fVeiss v. United States, 122 F.2d 675, 692 (5th Cir. 1941) (distinguishing between
“admissibility of evidence on the one hand, and its worth, weight, and sufficiency on the other; the former being for
the court and the latter for the jury”).
2

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 3 of 49

Pl.’s PUF U 16. Plaintiffs research position was funded by federal research grants awarded to
Dr. Wu by the National Institutes of Health (“NIH”). Defs.’ PUF

17.

Upon starting his position, Plaintiff and Dr. Wu signed a “position description” form,
delineating Plaintiff s job responsibilities. See Defs.’ Mot. for Summ. J. Ex. D-l (“Position
Description”), ECF No. 108-5. The form “attempts to identify the ‘major’ areas of responsibility
and is not all-inclusive.” Id. It estimates that 70% of Plaintiff s activity would be “perform[ing]
scientific research” using laboratory equipment. Id. Another 20% is estimated as “assisting] in
the preparation of manuscripts, posters, [and] grant applications,” with the remaining 10%
coming from maintenance of the lab and working cooperatively with colleagues. Id.
Plaintiff worked from a desk in Dr. Wu’s lab and alleges that he “was subject to serious
distraction by the constant noises from lab instruments and chatters of other researchers” and
“thought that he could work more effectively at home.” Pl.’s PUF ^[ 22; Defs.’ PUF

27.

Plaintiff still maintained a residence in West Virginia from his time at Marshall University and
requested Dr. Wu’s approval to work from that home. Pl.’s PUF ^ 22. Dr. Wu granted
Plaintiffs request. Id. Defendants dispute that Plaintiff was truly distracted by the conditions in
the lab, or at least that distraction was truly the motivation behind Plaintiffs request. See Defs.’
Resp. to Pl.’s PUF f 22, ECF No. 122-5; but see Pl.’s Resp. to Defs.’ PUF If 31, ECF No. 121-1
(contending that the “primary reason” Plaintiff sought to work from home was to “work more
efficiently and achieve better quality of work”).
An additional reason for Plaintiffs request was that he “had some legal matters to deal
with back in West Virginia.” Pl.’s PUF f 22. Plaintiff filed an administrative grievance and
federal lawsuit against Marshall University claiming the denial of his tenure was discriminatory.
See Defs.’ PUF

31; Defs.’ Mot. for Summ. J. Ex. A (“Plaintiffs Deposition”), at 19:9-19:17,
3

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 4 of 49

ECF No. 108-1. One reason Plaintiff maintained his residence in West Virginia was that his
pending proceedings against Marshall University could result in his reinstatement. See Pl.’s
Dep. 22:8-22:21, 116:23-117:7. Plaintiffs grievance proceedings commenced in 2016, prior to
his employment at TTUHSCEP. Id. at 23:1-23:4. Plaintiff filed his federal lawsuit against
Marshall in May 2017, after beginning work at TTUHSCEP and around the same time that
Plaintiff obtained Dr. Wu’s permission to work from home in West Virginia.3 See id. at 39:439:25, 174:3-174:9, 231:8-231:21; Defs.’ Mot. for Summ. J. Ex. H, at 3-4, ECF No. 108-8.
In November 2017, the TTUHSCEP Department of Biomedical Sciences audited the
work hours reported by its hourly employees. Pl.’s PUF ][ 24; Defs.’ PUF 38. The audit
reviewed records of employees entering the workplace—based on their access badges—over the
preceding six months. Pl.’s PUF ^ 25; Defs.’ PUF ][ 39. The audit showed that Plaintiff did not
use his badge to enter the building housing Dr. Wu’s lab on 118 or 119 of the 142 days reviewed
in the audit, including 90 consecutive workdays from June 7 to October 13, 2017.4 See Pl.’s
PUF If 25; Defs.’ PUF ^ 40; Defs.’ Mot. for Summ. J. Ex. D-2 (“Audit Report”), at 9-12, ECF
No. 108-4. Plaintiff reported regular full-time hours across the audited time period, except for
two weeks reported as vacation days. Defs.’ PUF 42; Pl.’s Resp. to Defs.’ PUF ][ 42.
3 The precise time that Plaintiff began residing in and working from West Virginia—and sought Dr. Wu’s
permission to do so—is unclear. Plaintiff’s Complaint states that “[f]rom early May to early December of 2017, the
plaintiff primarily worked from his home in West Virginia.” First Am. Compl. 35, ECF No. 60. In Plaintiff’s
deposition, upon reviewing records of his accessing the TTUHSCEP lab building, Plaintiff states that he does not
remember the precise date of the move, but, “I think it’s the end of May.” Pl.’s Dep. 172:2-172:6. It is undisputed
that Plaintiff was working from West Virginia by June 2017. Pl.’s Dep. 174:3-174:12.
4 Plaintiff asserts that Defendants’ alleged total number of swipeless days—118 or 119, depending on the
document—includes days which were not “workdays” because Plaintiff claimed vacation, such that the number of
“claimed workdays without access card use” is “approximately fewer than 103 days after proper adjustments.” See
Pl.’s Resp. to Defs.’ PUF ^ 41; Pl.’s Mot. for Summ. J. 9. Defendants contend that, as an employee who began
working in March 2017, Plaintiff had not yet accrued the twelve days of vacation time claimed during October 2017.
See Defs.’ PUF 42. Also, in general, Plaintiff argues the audit report numbers are not an accurate tally of the days
Plaintiff worked from home “because on many occasions his co-workers gave him rides to work and he did not use
his card to access the building.” Pl.’s PUF H 27. In light of this dispute, the Court refers to the number of days
Plaintiff failed to access the building in Defendants’ audit as 103-119 days.
4

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 5 of 49

Upon discovery of this discrepancy in the audit report, the Senior Director of the
department, Beverley Court, emailed a meeting invitation to Plaintiff and the chair of the
department, Dr. Peter Rotwein. See Defs.’ PUF T[ 43; Defs.’ Mot. for Summ. J. Ex. D-3
(“Meeting Invite”), ECF No. 108-5. The meeting was scheduled for December 19, 2017.
Meeting Invite. Defendants state that “Plaintiff failed to show up for the meeting and did not
reply to the meeting invitation.” Defs.’ PUF

44. Plaintiff emphasizes that he believed the

meeting was about improperly filed paperwork because the invitation stated only, “Meeting to
discuss Timesheets.” Meeting Invite; Pl.’s Resp. to Defs.’ PUF f 43. Plaintiff also states that
after receiving the invite “he went to see Ms. Court but was told she was gone for the Christmas
break,” and that he did reply to the meeting invitation in an exchange with Ms. Court two weeks
later. Pl.’s Resp. to Defs.’ PUF

44. Ultimately, the proposed meeting did not take place. See

Defs.’ PUF H 44; Pl.’s Resp. to Defs.’ PUF U 44.
The parties’ next communication took place on January 3, 2018. See Defs’ Mot. for
Summ. J. Ex. D-4 (“Court and Zeng Emails”), at 1-3, ECF No. 108-4. Ms. Court sent an email
to Plaintiff asking whether he mistakenly claimed work hours during an institutional holiday.
See id. at 2-3. Plaintiff responded, on January 7, 2018, affirming that the claimed hours were a
mistake. Id. at 2. Then, Ms. Court requested a meeting with Plaintiff the following day “to
discuss your timesheets.” Id. at 1. Plaintiff responded, “I am sorry. I am not in El Paso. I will
try to come back as soon as possible.... I will let you know once I am back if you still need to
meet with me.” Id. Ms. Court replied, “When do you plan to be at work so we can meet?” Id.
Plaintiff responded, in part, “I will let you once I am back [sic]. There is something I have to deal
with now, but I will come back as soon as I can.” Id.

5

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 6 of 49

Meanwhile, on December 21,2017, Dr. Rotwein, the department chair, emailed Dr. Wu
about the discovery of Plaintiff s absence from the lab. Pl.’s PUF

25; Defs.’ PUF ][ 47; Pl.’s

Mot. for Summ. J. Ex. W12 (“Rotwein and Wu Emails”), at 1-2, ECF No. 113-12. Dr. Rotwein
stated that “a small number of other employees” had discrepancies, “but none were at the level of
Dr. Zeng.” Rotwein and Wu Emails 2. And, “we have met with all of the other individuals,”
whereas “[w]e attempted to make an appointment with Dr. Zeng on December 19, 2017 to ask
him about these issues, but he did not show up.” Id. Dr. Rotwein concluded that, “[a]s you may
surmise, this is a potentially very serious problem,” and noted that Dr. Zeng’s absence could
violate state law, TTUHSCEP internal policy, and the NIH research grant. Id. Dr. Rotwein
requested a response by December 28, 2017. Id.
Dr. Wu responded on January 7, 2018. Pl.’s PUF K 25; Defs.’ PUF ^ 48. Dr. Wu was in
China at the time of Dr. Rotwein’s email, limiting Dr. Wu’s internet access. Pl.’s PUF ]j 25; see
Rotwein and Wu Emails 1. Dr. Wu stated that “[Plaintiff] can’t afford a lawyer so he has to be
physically presenting himself. . . for a while in [West] Virginia,” and “[o]ut of sympathy, I
agreed that he can work at home for a while.” Rotwein and Wu Emails 1. Dr. Wu then
explained the tasks he assigned Plaintiff, stating, “[i]n the beginning, I thought it would be over
in a short period but it appears that it will take much longer.” Id. Dr. Wu wrote that he told
Plaintiff to find a solution for returning to El Paso or else to resign his position. Id.
Dr. Wu copied Plaintiff on his reply to Dr. Rotwein. See id. Plaintiff states that this was
the first time he learned of the audit and the nature of Defendants’ concerns. Pl.’s PUF

27. On

January 9, 2018, Dr. Rotwein emailed Plaintiff about the discrepancies discovered in the audit.
Pl.’s PUF ][ 28; Defs.’ PUF

51. Dr. Rotwein stated, “I am sorry to learn that you have not been

available in El Paso to meet with me regarding ... your timesheets and building access during
6

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 7 of 49

May and through December of 2017.” Pl.’s Mot. for Summ. J. Ex. W14-1 (“Rotwein and Zeng
Emails”), at 1, ECF No. 113-14.5 Dr. Rotwein also noted the delay in response time from Dr.
Wu and the Plaintiff to Dr. Rotwein and Ms. Court’s email inquiries. Id. Dr. Rotwein ultimately
requested a detailed inventory of Plaintiff s work activities, noting that absence from the
TTUHSCEP campus is against institutional policy. Id. at 2. Plaintiff responded the next day that
he would send the requested information and disputed that he failed to respond to Ms. Court. Id.
The day after that, January 11,2018, Plaintiff sent Dr. Rotwein a list summarizing his
work activities. Pl.’s PUF 30; Defs.’ PUF 58. On January 12, 2018, Ms. Court emailed
Plaintiff that he was placed on unpaid leave effective January 2, 2018, for violating
TTUHSCEP’s telecommuting policy—Operating Policy (“OP”) 70.57. Defs.’ PUF ^ 66. On
January 19, 2018, Dr. Rotwein sent a memorandum to Dr. Richard Lange, TTUHSCEP
president, recommending Plaintiffs termination for cause. Id.

67.

On January 29, 2018, Ms. Court emailed Plaintiff a letter from Dr. Rotwein informing
Plaintiff of his termination, effective January 22, 2018. Id.

71. The letter cites Plaintiffs

violation of TTUHSCEP’s policy requiring the president’s authorization for off-campus work—
OP 70.06—as the basis for the termination. Id.

72. It also mentions the job description’s

estimation of Plaintiff s work activities as 80% laboratory-based. Id. ]f 73. Ms. Court’s email
attached TTUHSCEP’s “Separation or Termination of Employment Record” form. Id. f 75. The
form includes check-box options for “Type of Separation or Termination” in three columns:
voluntary, administrative, or misconduct. Defs.’ Mot. for Summ. J. Ex. D-7 (“Separation or
Termination of Employment Record”), at 27, ECF No. 108-4. Under the misconduct column,
the box listing “Other” is checked, with the space for an explanation filled in as “violation of OP
5 For all unpaginated exhibits, the Court cites to the page number created by the Court’s electronic
docketing system.
7

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 8 of 49

70.06.” Id. The form is signed by Dr. Rotwein, Rebecca Salcido—the assistant vice president
for human resources—and Dr. Lange. Id. The form has a line for a signature from the
employee’s supervisor, which is filled in as “supervisor is not available.” Id.
Plaintiff states that he returned to El Paso on January 26, 2018. Pl.’s PUF 32. Plaintiff
also states that he attempted to go to work on the TTUHSCEP campus on Monday, January 29,
2018, but found his access badge deactivated. Id. If 33. “A while later,” Plaintiff saw Ms.
Court’s email informing him of his termination. Id. 34.
Dr. Wu returned to the United States on February 12, 2018. Defs.’ Resp. to Pl.’s Mot. for
Summ. J. Ex. 1 (“Rotwein Affidavit”) U 20(i), ECF No. 122-1. On February 14, 2018, Dr. Wu
attended a meeting with Dr. Rotwein and the TTUHSCEP Vice President. Id. f 20(j). Dr.
Rotwein “recommended that Dr. Wu resign otherwise his termination would be recommended to
President Lange,” and “Dr. Wu refused to resign.” Id. The same day, Dr. Rotwein submitted a
memo to President Lange recommending Dr. Wu’s termination. Id. 20(k). The
recommendation of termination was based on several alleged TTUHSCEP policy violations
arising out of the events which led to Plaintiffs termination. Id.

14-19. Dr. Wu eventually

completed a mediation process with TTUHSCEP and reached a settlement agreement that
included his voluntary resignation. Id.

22.

Plaintiff filed suit on March 18, 2019, in the 243rd Judicial District Court for El Paso
County, Texas, and the case was removed to this Court on March 27, 2019. Notice of Removal,
ECF No. 1; Pl.’s Original Pet., ECF No. 4-1. Defendants filed for summary judgment on
December 18, 2019. Plaintiff filed for summary judgment on December 26, 2019.
II.

DISCUSSION
A.

Standard
8

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 9 of 49

1.

12(b)(1)

Federal courts are courts of limited jurisdiction. Exxon Mobile Corp. v. Allapattah
Servs., 545 U.S. 546, 552 (2005); People’s Nat’l Bank v. Office of the Comptroller of the
Currency of the U.S., 362 F.3d 333, 336 (5th Cir. 2004). Without jurisdiction conferred by
statute or the Constitution, federal courts lack the power to adjudicate claims. Exxon Mobil, 545
U.S. at 552; People’s Nat 7 Bank, 362 F.3d at 336. A party may challenge a district court’s
subject matter jurisdiction by filing a motion to dismiss pursuant to Federal Rule of Civil
Procedure 12(b)(1). Fed. R. Civ. P. 12(b)(1).
A federal court must consider a motion to dismiss pursuant to Rule 12(b)(1) before any
other challenge because a court must have subject matter jurisdiction before determining the
validity of a claim. Moran v. Kingdom of Saudi Arabia, 27 F.3d 169, 172 (5th Cir. 1994). The
party asserting jurisdiction constantly bears the burden of proof that the jurisdiction does in fact
exist. Ramming v. United States, 281 F.3d 158, 161 (5th Cir. 2001). Where the motion to
dismiss is based on the complaint alone, the court must decide whether the allegations in the
complaint sufficiently state a basis for subject matter jurisdiction. See Paterson v. Weinberger,
644 F.2d 521, 523 (5th Cir. 1981).

2.

Summary Judgment

A court must enter summary judgment “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a); see Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986); Weaver v. CCA Indus.,
Inc., 529 F.3d 335, 339 (5th Cir. 2008). “A fact is ‘material’ if its resolution in favor of one
party might affect the outcome of the lawsuit under governing law.” Sossamon v. Lone Star
State of Tex., 560 F.3d 316, 326 (5th Cir. 2009) (quoting Hamilton v. Segue Software, Inc., 232
9

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 10 of 49

F.3d 473, 477 (5th Cir. 2000) (per curiam)). A dispute about a material fact is genuine only “if
the evidence is such that a reasonable jury could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986); Ellison v. Software Spectrum, Inc.,
85 F.3d 187, 189 (5th Cir. 1996).
“[The] party seeking summary judgment always bears the initial responsibility of
informing the district court of the basis for its motion, and identifying those portions of [the
record] which it believes demonstrate the absence of a genuine issue of material fact.” Celotex,
All U.S. at 323; Wallace v. Tex. Tech. Univ., 80 F.3d 1042, 1046-47 (5th Cir. 1996). To show
the existence of a genuine dispute, the nonmoving party must support its position with citations
to “particular parts of materials in the record, including depositions, documents, electronically
stored information, affidavits or declarations, stipulations ..., admissions, interrogatory
answers, or other materials[,]” or show “that the materials cited [by the movant] do not establish
the absence ... of a genuine dispute, or that [the moving party] cannot produce admissible
evidence to support the fact.” Fed. R. Civ. P. 56(c).
The court resolves factual controversies in favor of the nonmoving party; however,
factual controversies require more than “conclusory allegations,” “unsubstantiated assertions,” or
“a ‘scintilla’ of evidence.” Little v. Liquid Air Corp., 37 F.3d 1069, 1075 (5th Cir. 1994) (en
banc). Further, when reviewing the evidence, the court must draw all reasonable inferences in
favor of the nonmoving party, and may not make credibility determinations or weigh evidence.
Man Roland, Inc. v. Kreitz Motor Express, Inc., 438 F.3d 476, 478-79 (5th Cir. 2006) (citing
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150 (2000)). Thus, the ultimate
inquiry in a summary judgment motion is “whether the evidence presents a sufficient

10

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 11 of 49

disagreement to require submission to a jury or whether it is so one-sided that one party must
prevail as a matter of law.” Anderson, All U.S. at 251-52.
B.

Analysis

Plaintiff claims that his termination by Defendants amounted to discrimination based on
his race and nationality in violation of his rights under Title VII, 42 U.S.C. § 1981, and the Texas
Commission on Human Rights Act (the “TCHRA”). Pl.’s Mot. for Summ. J. 4-11. Further,
Plaintiff claims that he was deprived of sufficient notice and opportunity to be heard regarding
his termination in violation of his procedural rights under the Due Process Clause of the
Fourteenth Amendment. Id. at 11-16. Finally, Plaintiff claims under state tort law that the
Defendants committed defamation and tortious interference in the course of his termination. Id.
at 16-20. In his summary judgment motion, Plaintiff argues that the evidence entitles him to
judgment as a matter of law on each of his claims.
Defendants argue there is insufficient evidence for Plaintiff to establish his discrimination
claims. Defs.’Mot. for Summ. J. 17-24. They present non-discriminatory reasons for Plaintiff s
termination and argue that Plaintiff fails to show those reasons are mere pretext for intentional
discrimination. Id. Further, Defendants argue that Plaintiffs § 1981 claim, § 1983 claims, and
tort claims are barred by sovereign immunity, qualified immunity, and immunity under the Texas
Tort Claims Act (“TTCA”). Id. at 24-30. Even if some of these claims survive immunity,
Defendants also argue that the evidence is insufficient to survive summary judgment. Id.
The Court first addresses a subject matter jurisdiction challenge raised by Defendants
under Rule 12(b)(1). Then, the Court analyzes each set of claims in turn. Finally, the Court
addresses Plaintiffs pending motions for supplemental discovery and sanctions for spoliation of
evidence.
ll

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 12 of 49

1.

The Court’s subject matter jurisdiction

Defendants incorporate the arguments raised in their First Amended Motion to Dismiss,
ECF No. 70, to their Motion for Summary Judgment. Defs.’ Mot. for Summ. J.

29. In the First

Amended Motion to Dismiss, Defendants move under Rule 12(b)(1) to dismiss Plaintiffs §
1981, § 1983, and tort claims against Defendant TTUHSCEP and the Individual Defendants in
their official capacities for lack of subject matter jurisdiction. First Am. Mot. to Dismiss 11-12,
23-24. Defendants argue that, as governmental entities,6 these Defendants are entitled to
sovereign immunity under the Eleventh Amendment to the United States Constitution. Id.
If Defendants are protected by sovereign immunity, the Court does not have subject
matter jurisdiction to hear this case because Defendants would be immune from suit. See, e.g.,
Warnock v. Pecos County, 88 F.3d 341, 343 (5th Cir. 1996). However, by removing this case
from state court to federal court, Defendants invoked federal jurisdiction and cannot now argue
that federal jurisdiction does not extend to the case at hand. See Lapides v. Bd. ofRegents of
Univ. Sys. Of Ga., 535 U.S. 613, 619 (2002).7 But, this does not mean that Defendants have
waived their right to argue sovereign immunity from liability in this case. See Skinner v. Gragg,
650 F. App’x 214, 218 (5th Cir. 2016) (citing Meyers ex rel. Benzing v. Texas, 410 F.3d 236, 255
(5th Cir. 2005)). It does mean, though, that Defendants waived their Eleventh Amendment
immunity from suit; therefore, this Court has subject matter jurisdiction over Plaintiffs claims
against the governmental defendants. See Lapides, 535 U.S. at 624.

6 TTUHSCEP is a product of the laws of Texas and benefits from Eleventh Amendment immunity to the
same extent as the state of Texas. See United States v. Tex. Tech. Univ., 171 F.3d 279, 289 n.14 (5th Cir. 1999).
And, suits against government officials in their official capacities are treated as suits against the state. Nelson v.
Univ. of Tex. at Dallas, 535 F.3d 318, 320 (5th Cir. 2008).
7 While Lapides concerned state-law claims, the Fifth Circuit has extended its holding to federal-law
claims, including § 1983 claims. See Spooner v. Jackson, 251 F. App’x 919, 924 (5th Cir. 2007); Meyers ex rel.
Benzing v. Texas, 410 F. 3d 236, 248 (5th Cir. 2005).
12

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 13 of 49

Furthermore, the Court’s subject matter jurisdiction is not barred by the Eleventh
Amendment to the extent that the Ex Parte Young exception applies. Plaintiff added claims for
injunctive relief in his Second Amended Complaint. Second Am. Compl.

202(H)-(N). “[T]o

avoid an Eleventh Amendment bar by means of Ex parte Young, ‘a court need only conduct a
straightforward inquiry into whether the complaint alleges an ongoing violation of federal law
and seeks relief properly characterized as prospective.’” Cantu Servs., Inc. v. Roberie, 535 F.
App’x 342, 344—45 (5th Cir. 2013) (quoting Va. Office for Prot. & Advocacy v. Stewart, 563
U.S. 247, 255 (2011)). Claims for prospective relief from discriminatory firings allege ongoing
violations of federal law. See Nelson v. Univ. of Tex. at Dallas, 535 F.3d 318, 323-24 (5th Cir.
2008); Hays v. LaForge, 113 F. Supp. 3d 883, 893 (N.D. Miss. 2015). And, Plaintiffs injunctive
claims—including expungement of his personnel file and a prohibition on allegedly defamatory
or stigmatizing statements about the Plaintiff—are properly characterized as prospective. See
e.g., Shah v. Univ. of Tex. Sw. Med. Sch., 129 F. Supp. 3d 480, 496-97 (N.D. Tex. 2015).
Therefore, Plaintiff seeks prospective relief from an ongoing violation of federal law and, under
Ex Parte Young, those claims against the governmental Defendants are not jurisdictionally
barred by the Eleventh Amendment.
The Court has subject matter jurisdiction and Defendants’ 12(b)(1) Motion is denied.

2.

The discrimination claims

Plaintiff brings discrimination claims under Title VII and the TCHRA against
TTUHSCEP and Defendants Rotwein, Lange, and Salcido in their official and individual

13

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 14 of 49

capacities. Plaintiff also brings § 1981 discrimination claims, pursuant to § 1983,8 against
Defendants Rotwein, Lange, and Salcido. Plaintiff argues the evidence entitles him to judgment
as a matter of law on each of these claims. Defendants argue the § 1981 claims fail on immunity
grounds and that the evidence is insufficient for any claim to survive summary judgment.
a.

Threshold issues

At the outset, Plaintiff cannot maintain his Title VII and TCHRA claims against the
Individual Defendants. Title VII permits plaintiffs to recover only from employers and from
employees in their official—not individual—capacities because “a Title VII suit against an
employee is actually a suit against the corporation.” Indest v. Freeman Decorating, Inc., 164
F.3d 258, 262 (5th Cir. 1999). Furthermore, a Title VII plaintiff cannot sue both an employer
and its employees in their official capacities because doing so subjects the employer to double
liability. Id. And, because TCHRA claims follow Title VII case law, these same rules govern
those claims. See In re UnitedServs. Auto. Ass’n, 307 S.W.3d 299, 308 (Tex. 2010); see, e.g.,
Lloyd v. Birkman, 127 F. Supp. 3d 725, 745-46 (W.D. Tex. 2015). Therefore, given that
Plaintiff elects to sue TTUHSCEP itself, summary judgment is warranted for Defendants on
Plaintiffs Title VII and TCHRA claims against TTUHSCEP employees—Rotwein, Lange, and
Salcido—in their individual and official capacities. See Indest, 164 F.3d at 262.
Additionally, Plaintiffs TCHRA claim against Defendant TTUHSCEP fails on state
immunity grounds. While Congress abrogated sovereign immunity under Title VII, Fitzpatrick
v. Bitzer, 427 U.S. 445 (1976), Texas waived damages and suit immunity under TCHRA only in
8 Section 1981 provides that “[a]ll persons within the jurisdiction of the United States shall have the same
right in every State and Territory to make and enforce contracts ... as is enjoyed by white citizens.” 42 U.S.C. §
1981(a). Section 1981 claims against state employees “must [ ] be pursued through the remedial provision of §
1983.” Felton v. Polles, 315 F.3d 470, 482 (5th Cir. 2002), abrogated on other grounds by Burlington N. & Santa
Fe Ry. Co. v. White, 548 U.S. 53 (2006). Plaintiff has done so here by claiming “Defendants Rotwein, Lange and
Salcido ... violated 42 U.S.C. §§ 1981, 1983.” See Foley v. Univ. ofHous. Sys., 355 F.3d 333, 340 n.9 (5th Cir.
2003).
14

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 15 of 49

Texas courts, Pequeho v. Univ. of Tex. at Brownsville, 718 F. App’x 237, 241 (5th Cir. 2018)
(citing Perez v. Region 20 Educ. Serv. Ctr., 307 F.3d 318, 326 (5th Cir. 2002)). And, as
explained above, Defendants’ waiver of sovereign immunity from suit by removing this case to
federal court did not waive sovereign immunity defense as to liability. See Skinner, 650 F.
App’x at 218 (citing Meyers ex rel. Benzing, 410 F.3d at 255). Therefore, Defendants are also
entitled to summary judgment on Plaintiffs TCHRA claim against TTUHSCEP.
Plaintiffs surviving discrimination claims are a Title VII claim against TTUHSCEP and
§1981 claims against Defendants Rotwein, Lange, and Salcido. Employment discrimination
claims under Title VII and § 1981 “require the same proof to establish liability.” Shackelford v.
Deloitte & Touche, LLP, 190 F.3d 398, 403 n.2, 404 (5th Cir. 1999). Because Plaintiff alleges
intentional discrimination based on circumstantial evidence, the Court analyzes the claims under
the McDonnell Douglas burden-shifting framework. See McCoy v. City of Shreveport, 492 F.3d
551, 556 (5th Cir. 2007) (citing McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973)).
Under that framework, a plaintiff must first establish a prima facie case of discrimination. Id. If
the plaintiff does so, the burden shifts to the employer to provide a legitimate, nondiscriminatory
reason for its treatment of the plaintiff. Id. at 557. Finally, if the employer meets this burden of
production, the ultimate burden of persuasion reverts to the plaintiff to show the employer’s
proffered justification is a mere pretext for intentional discrimination. Id.
b.

The prima facie case

To establish a prima facie case at the first step of the framework, the evidence must show
that the plaintiff (1) is a member of a protected class; (2) is qualified for the position at issue; (3)
was subjected to an adverse employment action; and (4) was replaced by someone outside the
protected class or treated differently than similarly situated employees outside the protected
15

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 16 of 49

class. Laxton v. Gap Inc., 333 F.3d 572, 578 (5th Cir. 2003). More specifically, on the fourth
element, “in work-rule violation cases, such as the instant case, a Title VII plaintiff may establish
a prima facie case by showing either (1) that he did not violate the rule, or (2) that, if he did,
[non-protected-class] employees who engaged in similar acts were not punished similarly.” See
Turner v. Kan. City S. Ry. Co., 675 F.3d 887, 892-93 (5th Cir. 2012).
Here, the parties dispute whether the evidence satisfies the second and fourth elements.
See Pl.’s Mot. for Summ. J. 4-5; Defs.’ Resp. to Pl.’s Mot. for Summ. J. 5-6. Even assuming
that Plaintiff was qualified for the position, satisfying the second element, Plaintiffs prima facie
case fails on the fourth element because the evidence shows he violated workplace rules and
does not show disparate treatment.
i.

The rules violations

Because Plaintiffs termination was based upon violations of workplace rules, Plaintiff
can satisfy the fourth element of his prima facie case by showing he did not, in fact, violate the
rules. Turner, 675 F.3d at 892-93; Mayberry v. Vought Aircraft Co., 55 F.3d 1086, 1089-90
(5th Cir. 1995).
Plaintiff was terminated for working from his residence in West Virginia without the
written authorization of TTUHSCEP President Dr. Lange, as required by TTUHSCEP OP 70.06,
and without a signed telecommuting agreement, as required by TTUHSCEP OP 70.57.9 The
relevant provision of OP 70.06 provides:

9 Plaintiff argues that only OP 70.06 can be considered as the basis for his termination because only OP
70.06 is cited on the formal record of termination. However, Defendants cited Plaintiff for violating multiple
TTUHSCEP policies in other documents, such as Ms. Court’s email notifying Plaintiff of his placement on unpaid
leave for violating OP 70.57. See Unpaid Leave Notice Email, Defs.’ Mot. for Summ. J. Ex. D-5, ECF No. 108-5.
The Court’s analysis may consider any of the alleged rule violations and is not constrained only to the violation cited
in the formal termination record. See, e.g., Laxton, 333 F.3d at 579-83 (analyzing each of the employer’s alleged
rule violations, including some “listed in the Final Written Warning” and some not cited in formal documentation);
Wallace, 271 F.3d at 217-18,220 (explaining, in the factual background, that the employer cited a single rule
16

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 17 of 49

Place of Duty. An employee shall, during normal office hours, conduct TTUHSC El
Paso business only at the employee’s regular place of business or assigned duty point
unless the employee is on travel status or has received prior written authorization from
the President. In no event shall an employee’s personal residence be deemed to be that
employee’s regular place of business or duty point without prior written authorization of
the President or his/her designee.
Defs.’ Mot. for Summ. J. Ex. E-l (“OP 70.06”), at 3, ECF No. 108-5. Defendants state that
TTUHSCEP OP 70.06 tracks with Texas state law, which provides:
PLACE WHERE WORK PERFORMED, (a) An employee of a state agency shall, during
normal office hours, conduct agency business only at the employee’s regular or assigned
temporary place of employment unless the employee: (1) is travelling; or (2) received
prior written authorization from the administrative head of the employing state agency to
perform work elsewhere, (b) The employee’s personal residence may not be considered
the employee’s regular or assigned temporary place of employment without prior written
authorization from the administrative head of the employing state agency.
See Rotwein Aff. If 5; Tex. Gov’t Code Ann. § 658.010 (West 2020).
Finally, when an employee does obtain permission to work from home—or, “telecommute”—OP
70.57 provides:
All telecommuting must be performed pursuant to a Telecommuting Agreement. . .
between the employee and supervisor. The Agreement shall comply with the
requirements of this policy, be completed and signed by the employee and the
employee’s supervisor and must have the approval of the employee’s unit head, the Dean
or Director, the appropriate department’s Vice President, Human Resources, and
President before it can be implemented. Copies of approved Agreements must be filed
with the Human Resources Department.
Defs’ Resp. to Pl.’s Mot. for Summ. J. Ex. C (“OP 70.57”) at 1, ECF No. 122-3.
Before starting at TTUHSCEP, Plaintiff signed an “Employee Acknowledgment” form
One provision of that form—“Select [TTUHSCEP] Operating Policies (OP) and Procedures—
listed ten hyperlinks to selected TTUHSCEP policies that the employee agrees to faithfully
access, review, and abide by. Defs. Mot. for Summ. J. Ex. B-2 (“Employee Acknowledgment”),
at 9, ECF No. 108-2, Pl.’s Mot. for Summ. J. Ex. W26-1, at 6-7, ECF No. 113-47. The ten

violation at the time of the plaintiffs termination, but analyzing multiple rule violations proffered as legitimate
reasons for the firing under the McDonnell Douglas framework).
17

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 18 of 49

cataloged policies did not include OP 70.06 or OP 70.57. See id. The last provision of the
form—“Employee Acknowledgment”—states in part:
By signing below, I acknowledge I have received and reviewed the information provided
on this form and understand that it is not intended to be all inclusive of [TTUHSCEP]
Operating Policies and Procedures, the Board or Regents’ Rules [sic], and the State
Government Code.... I understand that it is my obligation to faithfully access the links
to the policies provided and to review them in accordance with institutional requirements,
and comply with [TTUHSCEP] Operating Policies and Procedures and the Board of
Regents’ Rules.
Id.
Plaintiff argues the conduct that gave rise to his termination did not, in fact, violate these
rules for three reasons. First, “the plaintiff had his supervisor Dr. Wu’s permission to work from
home.” Pl.’s Mot. for Summ. J. 5. Second, “based on Dr. Rotwein’s own statement, according
to the practice and the chain of authority/hierarchy of TTUHSCEP, it was the supervisor’s
responsibility to request approval from the president for the employee to work from home.” Id.
And third, “it was not the ‘institutional requirements’ to review all policies, specifically
OP70.06.” Id.
These arguments are unavailing. There is no question that the evidence shows Plaintiffs
conduct was in violation of TTUHSCEP rules. First, OP 70.06 explicitly requires written
authorization from the President for an employee to work from somewhere other than their
assigned workplace. OP 70.06 at 3. And, it requires written authorization from the President or
his designee for an employee to work from a personal residence. Id. There is no evidence that
Dr. Wu was the designee of the TTUHSCEP President—Dr. Lange—for this purpose, nor that
Plaintiff otherwise obtained the President’s prior written authorization to work from home in
West Virginia. Likewise, OP 70.57 expressly requires a written telecommuting agreement for an
employee to work from home, signed by several administrative officials. OP 70.57 at 1. There
18

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 19 of 49

is no evidence that Plaintiff signed the requisite telecommuting agreement and obtained the
proper approvals. While there is no dispute that Plaintiff sought and obtained Dr. Wu’s
permission to work from home in West Virginia, Dr. Wu’s permission was insufficient under the
policy. Plaintiffs conduct violated workplace rules.
Second, obtaining Dr. Wu’s permission did not immunize Plaintiff and shift any further
burden to comply exclusively upon Dr. Wu. Plaintiff points to two statements made by Dr.
Rotwein to argue the contrary. First, in his email to Plaintiff about the violations, Dr. Rotwein
states: “I also note that without prior written approval from the President of [TTUHSCEP], offcampus work by employees is not allowed according to our institutional policies. You did not
have that approval, as your supervisor, Dr. Wu, never submitted such a request.” Rotwein and
Zeng Emails 2. Second, in his memo to TTUHSCEP President Dr. Lange, Dr. Rotwein states:
“Dr. Zeng had not received written approval to work away from TTUHSC El Paso. To my
knowledge, Dr. Wu, as his immediate supervisor, had never applied for such permission.” Pl.’s
Mot. for Summ. J. Ex. W18 (“Termination Recommendation Memo”) at 2, ECF No. 113-19.
These statements acknowledge that Plaintiff obtained Dr. Wu’s permission. But, they affirm that
Plaintiffs conduct still violated policy because Dr. Wu also did not obtain the requisite
approvals. They do not mean that, as Plaintiff puts it, “it was the supervisor’s responsibility to
request approval.” See Pl.’s Mot. for Summ. J. 5. Dr. Rotwein may have anticipated that
presidential approval would have been obtained by the supervising faculty member, as opposed
to the staff member. That does not relieve Plaintiffs obligation to comply with TTUHSCEP
operating policies as written. Plaintiffs conduct remains a rule violation despite these
statements.

19

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 20 of 49

Third, Plaintiffs lack of knowledge that his conduct was violative is irrelevant. Plaintiff
states that “neither the plaintiff nor his supervisor Dr. Wu knew that it required the president’s
approval for the plaintiff to work from home.” Pl.’s Mot. for Summ. J. 5. However, the
undisputed evidence shows that Plaintiff had previously signed the Employee Acknowledgment
averring that he understood his obligation to review and comply with all institutional policies and
rules. Employee Acknowledgment 9.
Plaintiff refutes that the Employee Acknowledgment form put him on notice of, and
bound him to compliance with, OPs 70.06 and 70.57. Plaintiff emphasizes that the agreement
provided links to several policies but not OPs 70.06 or 70.57. Pl.’s PUF ]| 40. And, that the
form obliged the signatory only to “review [the policies] in accordance with institutional
requirements.” Id. Plaintiff concludes that the phrase “in accordance with institutional
requirements” meant he was required only to review the documents expressly listed on the form.
Pl.’s PUF T142. This line of reasoning completely ignores the portion of the acknowledgement,
however, stating that Plaintiff agreed that “[b]y signing below, I acknowledge I... understand
that [this form] is not intended to be all inclusive of [TTUHSCEP] Operating Policies and
Procedures.” Employee Acknowledgment 9. And, “that it is my obligation to access the links to
the policies provided and to review them in accordance with institutional requirements, and
comply with [TTUHSCEP] Operating Policies and Procedures.” Id. (emphasis added)
(hyperlinking the underlined portion to an online list of all TTUHSCEP policies). Plaintiff
concludes that “this interpretation of the requirements is unreasonable because there are as many
as 776 policies. No one could review and/or remember such [an] enormous number of policies.”
Pl.’s PUF K 44. However, that is the obligation Plaintiff expressly agreed to when he signed the
Employee Acknowledgment form as a precondition to his employment.
20

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 21 of 49

Therefore, Plaintiff agreed to comply with OPs 70.06 and 70.57 as a precondition to his
employment. The evidence shows that Plaintiff was in violation of those policies, and Plaintiffs
arguments fail to show otherwise. Plaintiff adds that his conduct “did not cause any damage to
the property of TTUHSCEP, nor was it a security threat,” and that “plaintiffs excellent job
performance should be taken into consideration to mitigate the seriousness of the alleged
violation.” Pl.’s Mot. for Summ. J. 5. However, these facts are ultimately irrelevant to this
inquiry. The reason that the fourth element of the prima facie case can be satisfied by showing
that no rules violation took place is that a jury could infer that intentional discrimination was the
true motivation for the firing. See Turner v. Kan. City S. Ry. Co., 675 F.3d at 892-93, 895 n.7.
If the evidence shows only that Plaintiff unknowingly violated the rules, a reasonable jury could
not reach this inference. See id. at 895 n.7; Mayberry, 55 F.3d at 1089-90.
Plaintiff fails to establish that he did not, in fact, violate workplace policies. To satisfy
the fourth element of his prima facie case, then, Plaintiff must show that employees outside of
his protected class who engaged in similar acts were not punished similarly. See Turner, 675
F.3d at 892-93.
ii.

Similarly situated comparators

To meet the fourth element, Plaintiff must identify “comparator” employees outside of
his protected class who were “treated more favorably ‘under nearly identical circumstances.’”
See Alkhawaldeh v. Dow Chem. Co., 851 F.3d 422, 427 (5th Cir. 2017) (quoting Lee v. Kan. City
S. Ry. Co., 574 F.3d 253, 259 (5th Cir. 2009)).
The “nearly identical circumstances” standard for comparators generally considers
several factors to determine if co-workers are “similarly situated.” Lee, 574 F.3d at 260-61.
Courts look to whether the employees being compared held the same job or responsibilities, had
21

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 22 of 49

the same supervisor or the same person decide their disciplinary outcome, and had essentially
comparable violation histories. Id. at 260. Most importantly, in rules-violation cases, the
conduct at issue—the basis for the employer’s adverse employment action against the plaintiff—
must be “nearly identical” to that of the comparator who was allegedly treated more favorably.
Id. “[P]ut another way, the conduct at issue is not nearly identical when the difference between
the plaintiffs conduct and that of those alleged to be similarly situated accounts for the
difference in treatment received from the employer.” Wallace v. Methodist Hosp. Sys., 271 F.3d
212, 221 (5th Cir. 2001) (emphases added). Near identically does not require complete and total
similarity, though. Lee, 574 F.3d at 260. For example, differences between the comparators’
most immediate supervisors or the exact number of infractions in disciplinary records are not
disqualifying. Id.
Here, the comparators Plaintiff identifies are not “similarly situated” to Plaintiff. First,
Plaintiff points to nearly 200 instances of rules violations by predominantly non-Asian, nonChinese TTUHSCEP employees from July 2014 to January 2018. See Pl.’s Mot. for Summ. J.
Exs. W22-1-W22-20, ECF Nos. 113-23-113-42. Plaintiff argues the disciplinary records
establish that TTUHSCEP has a practice of issuing multiple notices of rules violations, and both
informal and formal corrective actions, prior to a termination—a practice that was not applied in
his case. Pl.’s Mot. for Summ. J. 7-8. This kind of generalized evidence cannot be used to
satisfy the fourth element of Plaintiff s prima facie case, however, because the evidence does not
establish that the employees at issue are similarly situated to Plaintiff. See, e.g., Bouie v.
Equistar Chems. LP, 188 F. App’x 233, 237-38 (5th Cir. 2006) (finding that company-wide data
tending to bolster the plaintiffs claim “does not speak to whether other similarly situated
employees were treated more favorably”). The cases arose during a multi-year period, across
22

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 23 of 49

departments of TTUHSCEP, among employees with varying supervisors and job responsibilities.
This evidence does not demonstrate the purported comparators were treated more favorably than
Plaintiff under “nearly identical circumstances.” See Lee, 574 F.3d at 260-61; Wallace, 271
F.3d at 221.
Next, Plaintiff specifically identifies thirteen non-Asian, non-Chinese employees whose
disciplinary records resulted in termination. Pl.’s Mot. for Summ. J. Ex. W22-20. Plaintiff
argues that—unlike in his case—each of these terminations involved multiple warnings and
corrective actions, the approval of direct supervisors, and notice of termination prior to the
effective date. Pl.’s Mot. for Summ. J. 8. However, these comparators cannot be used to show
disparate treatment because they were not terminated under nearly identical circumstances. See
Lee, 574 F.3d at 260-61; Wallace, 271 F.3d at 221. Rather, the evidence shows these employees
worked in varied roles, including IT support, clinical assistance, editing, and patient services.
See Pl.’s Mot. for Summ. J. Ex. W22-20. It does not appear that any had responsibilities similar
to Plaintiffs in his research role in a laboratory setting. See id. Nor did they work in the same
department or under the same supervisors as Plaintiff. See id. Finally, the conduct which
ultimately resulted in their terminations—tardiness, harassment, failure to perform,
unprofessional behavior—is not “nearly identical” to Plaintiffs rule violation—working from
home for many months, in a laboratory-based position, without proper authorization. See Lee,
574 F.3d at 260. Thus, these comparators cannot be said to have been fired under nearly
identical circumstances. See id.
Nonetheless, Plaintiff argues that the comparators are similarly situated because their rule
violations are necessarily of “comparable seriousness” to his own, given that they were also
punishable by termination. Pl.’s Mot. for Summ J. 2-3. Violations of comparable seriousness
23

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 24 of 49

may be regarded as nearly identical. See Lee, 574 F.3d at 261 (citing McDonald v. Santa Fe
Trail Trans. Co., 427 U.S. 273, 283 n.l 1 (1976); McDonnell Douglas, 411 U.S. at 804).
However, “comparable seriousness” refers to the “seriousness” of the employee’s misconduct,
not the punishment which may be available under the employer’s policies. See id. (referring to
the seriousness “of the offenses for which discipline was meted out” as opposed to “how a
company codes an infraction under its rules and regulations”). Here, Defendants explicitly
regarded Plaintiffs violation as being of the utmost seriousness. Defendants expressed concern
that Plaintiffs conduct was violating state law governing TTUHSCEP employees and federal
law governing the NIH grants funding the position. See, e.g., Rotwein and Zeng Emails;
Rotwein and Wu Emails. Indeed, Defendants went so far as to report the situation to the NIH
and claim they returned $30,000 in federal funds to the NIH as a result. See NIH Letter, Defs.’
Mot. for Summ. J. Ex. B-7, ECF No. 108-2; Defs.’ PUF

114. While Plaintiff contends that his

violation was regarded with such seriousness unfairly, “[t]he relevant perspective is that of the
employer at the time of the adverse employment decision.” Lee, 574 F.3d at 261 n.27.
Moreover, even if Plaintiff s violation is of comparable seriousness—and therefore
“nearly identical”—to the comparators’ violations, this factor alone would not establish that their
terminations took place under nearly identical circumstances. It is true that the comparable
seriousness factor is “critical” to the analysis. See id. at 260; Wallace, 271 F.3d at 221.
However, the Fifth Circuit has made clear that the Supreme Court’s instruction on “comparable
seriousness” in McDonald does not reduce the “nearly identical circumstances” inquiry to this
single factor. See Perez v. Tex. Dep 7 of Criminal Justice, Institutional Div., 395 F.3d 206, 21213 (5th Cir. 2004). Rather, “[the comparators’] circumstances, including their misconduct, must
have been ‘nearly identical.’” Id. Here, even if the misconduct was nearly identical, the
24

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 25 of 49

aforementioned differences in the comparators’ positions means they are not similarly situated to
Plaintiff. See id. at 215 (holding that, even if comparable seriousness were conceded, “other
potentially significant distinctions between [the comparators’] respective circumstances” could
determine the near-identicality analysis).
Finally, most specifically, Plaintiff identifies two comparators cited for rule violations
arising out of the same audit as Plaintiffs violations. Pl.’s Mot. for Summ. J. 8-10. First, Alexa
Montoya was a “Medical Research Tech” in TTUHSCEP’s Center of Emphasis in Cancer, which
operated in the same department as Plaintiffs lab, chaired by Dr. Rotwein and administrated by
Ms. Court. See Pl.’s Summ. J. Mot. Ex. W29 (“Employee Records”) at 2-11, ECF No. 113-52;
Pl.’s PUF *([ 73. Ms. Montoya’s job responsibilities were comparable to Plaintiffs, contributing
to academic research in a laboratory setting. See Employee Records 2-11 (describing Ms.
Montoya’s work in the “competencies summary” boxes). Ms. Montoya self-identified her race
as “American Indian or Native Alaskan White.” Id. at 1. Second, Plaintiff identifies Christopher
Lopez. While relatively less evidence concerns Mr. Lopez, he also occupied a “Medical
Research Tech” position in the same department and is of “Hispanic” race according to
TTUHSCEP. See id. at 25-27.
Like Plaintiff, Ms. Montoya and Mr. Lopez were both discovered to have discrepancies
between their reported working hours and their building access. Ms. Court investigated the
discrepancies, as in Plaintiffs case. See Defs.’ Resp. to Pl.’s Mot. for Summ. J. Ex. 3 (“Court
Affidavit”)

7-12, ECF No. 122-3. Ms. Montoya reported regular work hours on eighty-three

days during which she did not use her badge to access the laboratory building. Employee
Records 12. Mr. Lopez reported twenty-four workdays with regular hours but without building
access. Id. at 27. While these discrepancies are less than the 103-119 day discrepancy alleged
25

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 26 of 49

against Plaintiff, they arise from the same time period and series of audits, in the same
department, and were investigated by the same decisionmakers.
There are, however, two crucial distinctions in the cases of Ms. Montoya and Mr. Lopez
that render them not “similarly situated” to the Plaintiff. First, Ms. Montoya and Mr. Lopez both
met with department administrators—Defendants Rotwein, Court, and Salcido—when Ms. Court
requested meetings regarding the discrepancies. See Court Aff. ]j 4. At these meetings, these
employees were notified of their alleged rule violations and granted the opportunity to explain
the discrepancies. See id. Plaintiff, by contrast, did not respond to Ms. Court’s meeting
invitation until Ms. Court emailed again, roughly two weeks later. Even then, when Ms. Court
again requested to meet, Plaintiff responded that he was unavailable and did not inquire about the
issue or take further steps to reschedule. Thus, while Plaintiff argues he was offered
comparatively less recourse for his rule violations, the comparators attended the meetings
intended to provide recourse for their rule violations and Plaintiff did not. Because this
distinction could “accountf] for the difference in treatment received from the employer,” it
cannot be said that Ms. Montoya and Mr. Lopez received more favorable treatment under “nearly
identical” circumstances as Plaintiff. See Wallace, 271 F.3d at 221.
Plaintiff responds that he was not adequately informed of the timing and purpose of the
requested meetings. However, Ms. Montoya and Mr. Lopez were notified of meeting requests in
the same manner as Plaintiff, via identical calendar invites. See Court Aff. 4. Only Plaintiff
received a second meeting request two weeks later, to which he responded that he was
unavailable, taking no further action to follow up. See id. fflj 3-4. Given that Ms. Montoya and
Mr. Lopez received identical notice, this evidence cannot support the inference that Defendants
provided Plaintiff less of an opportunity to resolve the charges against him. Therefore, even
26

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 27 of 49

accepting as true Plaintiffs explanation for not meeting with Defendants—that he was unaware
of Defendants’ concerns and believed the meeting requests to be about routine paperwork
issues—these facts cannot serve as circumstantial evidence of discriminatory intent by
Defendants.
The next distinction, most critical to the analysis, is that the rule violations committed by
Ms. Montoya and Mr. Lopez are not “nearly identical” to Plaintiffs. While their violations are
similarly related to discrepancies between building access and claimed working hours, their
violative conduct was distinct from Plaintiffs. Ms. Montoya’s badge swipes did not align with
her claimed workdays because “Ms. Montoya’s assigned work hours were in the evenings and
her badge access had been set up for normal working hours only.” Court Aff.

7, 9. Ms.

Montoya explained that “the campus police and security would let her into the building.” Id. ^
10. Ms. Montoya’s faculty supervisor confirmed that, during the evening hours, Ms. Montoya
“was conducting bench top research and providing data in support of her claim for the hours she
worked.” Id. Ultimately, then, Ms. Montoya “was, in fact, at her assigned duty station on the
days when the audit showed she had not used her badge to access” the lab building. Id. ]J 7.
Likewise, Mr. Lopez sometimes worked in the evening and “was often walking into work as
people were leaving and did not need to use his card to gain access to the building.” Id.

12.

Both Ms. Montoya and Mr. Lopez faced disciplinary action for the rule violation of “not having
and using [their] badge[s] appropriately.” Id. ^ 8, 12.
These rule violations are not of comparable seriousness to Plaintiffs and therefore are
not nearly identical. Plaintiffs working from West Virginia without proper authorization was
contrary to TTUHSCEP policy and state law. It meant that Plaintiff could not have been
carrying out laboratory-based work as anticipated by his signed position description. Defendants
27

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 28 of 49

feared that this fact could amount to fraud or waste under the federal regulations underlying the
NIH grant funding the position. Similar concerns are not raised by Ms. Montoya and Mr.
Lopez’s improper access badge practices. The violations are dissimilar enough that the
difference likely “accounts for the difference in treatment received from the employer.” See
Wallace, 271 F.3d 212. Therefore, the comparators were not granted more favorable treatment
under nearly identical circumstances and are not similarly situated to Plaintiff. See id.-, Lee, 574
F.3d at 260-61.
Accordingly, Plaintiffs prima facie case of employment discrimination fails on the fourth
element. There is insufficient evidence for a reasonable jury to find a prima facie case of
intentional discrimination under Fifth Circuit law.
c.

The legitimate justification and pretext analyses

Even if Plaintiff could establish a prima facie case, Defendants would be entitled to
summary judgment on his discrimination claims under the remaining steps of the McDonnell
Douglas framework. First, Defendants must proffer a legitimate basis for the termination, and
then, Plaintiff must show that basis is mere pretext for intentional discrimination. See McCoy,
492 F.3d at 556.

i.

The legitimate, non-discriminatory basis

First, Defendants have clearly met their burden to provide a legitimate, nondiscriminatory justification for the termination. See Sandstad v. CB Richard Ellis, Inc., 309 F.3d
893, 897-98 (5th Cir. 2002) (internal quotations omitted) (explaining that, because the burden is
one of production, as opposed to persuasion, “it can involve no credibility assessment”). “The
employer is not required to convince the Court that it was actually motivated by this reason; it
28

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 29 of 49

need only raise a genuine issue of fact as to whether or not it discriminated against the plaintiff.”
Nasti v. C1BA Specialty Chems. Corp., 492 F.3d 589, 593 (5th Cir. 2007). Even an employer’s
incorrect, but good-faith, belief about an employee’s performance can be a sufficient nondiscriminatory basis for a termination. Mayberry, 55 F.3d at 1091 (“The question is not whether
an employer made an erroneous decision; it is whether the decision was made with
discriminatory motive.”).
Here, Defendants proffer Plaintiffs rules violations as the legitimate, non-discriminatory
basis for his termination. See Defs.’ Mot. for Summ. J. 20-23. Those violations include
working from home without proper authorizations; failing to complete laboratory work as
anticipated by the signed position description; and, therefore, failing to comply with the terms
and underlying regulations of the federal NIH grant funding the position. Dr. Rotwein cited
these violations in his emails to Plaintiff and Dr. Wu about the situation, as well as in his memo
to Dr. Lange recommending Plaintiffs termination. See Rotwein and Zeng Emails; Rotwein and
Wu Emails; Termination Recommendation Memo. Ms. Court cited Plaintiffs lack of a
telecommuting agreement when notifying Plaintiff of his placement on unpaid leave. See Defs’
Mot. for Summ. J. Ex. D-5 (“Unpaid Leave Email”), ECF No. 108-4. And, the formal
termination record categorizes the termination as “misconduct”-based, listing a violation of the
policy requiring employees to work from their assigned workstations. See Separation or
Termination of Employment Record 27. Thus, Defendants point to evidence in the record
sufficient to meet their burden of production on this justification. See Sandstad, 309 F.3d at
897-98; Nasti, 492 F.3d at 593. And, it is well-established that violations of workplace rules are
a legitimate and non-discriminatory business justification for terminating an employee. See, e.g.,
Haire v. Bd. ofSupervisors ofLa. State Univ. Agric. & Mech. Coll., 719 F.3d 356, 364 (5th Cir.
29

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 30 of 49

2013); Jackson v. Cal-Western Packaging Corp., 602 F.3d 374, 378-79 (5th Cir. 2010); Laxton,
333 F.3d at 579; Mayberry, 55 F.3d at 1091.
Therefore, the ultimate burden of persuasion falls to Plaintiff to show that Defendants’
proffered basis for the termination is a mere pretext for intentional discrimination.

ii.

Pretext or motivating factor

Even assuming Plaintiff established a prima facie case, Defendants are still entitled to
summary judgment because Plaintiff has not proffered sufficient evidence to raise a factual
dispute as to whether intentional discrimination was Defendants’ true motivation for firing
Plaintiff.
A plaintiff can establish a genuine dispute of material fact as to intentional discrimination
by showing the defendant’s proffered reasons are merely pretextual, or else that discrimination
was another motivating factor for the termination. Vaughn v. Woodforest Bank, 665 F.3d 632,
636 (5th Cir. 2011). To establish pretext, the plaintiff must produce “substantial evidence” that
the defendant intentionally discriminated against him because of his protected status. Laxton,
333 F.3d at 578. “Evidence is substantial if it is of such quality and weight that reasonable and
fair-minded [people] in the exercise of impartial judgment might reach different conclusions.”
Id. at 579 (internal quotations omitted). The plaintiff must rebut each of the nondiscriminatory
reasons proffered by the defendant, either through evidence of disparate treatment or evidence
showing the reasons are false or unworthy of credence. Vaughn, 665 F.3d at 637; Delaval v.
PTech Drilling Tubulars, L.L.C., 824 F.3d 476, 480 (5th Cir. 2016). “An explanation is false or
unworthy of credence if it is not the real reason for the adverse employment action.” Laxton,
333 F.3d at 578.

30

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 31 of 49

Here, there is no evidence that Plaintiffs race or national origin were motivating factors
for his termination, and Plaintiff otherwise fails to show that Defendants’ proffered justification
is pretextual. See Vaughn, 665 F.3d at 636.
Plaintiff first attempts to establish pretext through evidence of treatment different from
appropriate comparators. As explained above regarding Plaintiffs prima facie showing, the
employees Plaintiff points to as receiving more favorable treatment were not “similarly situated”
to Plaintiff. See Lee, 574 F.3d at 260-61; Wallace, 271 F.3d at 221. Therefore, that evidence
also cannot be relied upon at the pretext stage to support the inference that intentional
discrimination was the true motive for Defendants’ treatment of Plaintiff. See Vaughn, 665 F.3d
at 637; Laxton, 333 F.3d at 578-79.
Plaintiff argues more generally that there is evidence of disparate treatment because
Defendants were generally “hostile” towards Asian employees and terminated other Asian staff
members prior to Plaintiff. Pl.’s Mot. for Summ. J. 10-11. Plaintiff identifies the terminations
of his faculty supervisor, Dr. Wu, along with two other faculty members terminated under Dr.
Lange’s tenure, Dr. Manjunath Narasimhaswamy and Dr. Premlata Shankar. Id. However,
given that faculty members are hired and terminated under entirely different policies from staff
members like Plaintiff, there is little question that these comparators are not similarly situated to
Plaintiff. See Lee, 574 F.3d at 260-61; Wallace, 271 F.3d at 221. Plaintiff cannot otherwise
show pretext by alleging a broader trend of disparate treatment involving comparators who are
not similarly situated. See Bouie, 188 F. App’x at 237-38. And, even if he could, Defendants
put forward evidence that Dr. Wu resigned following a faculty mediation process, and Dr.
Narasimhaswamy and Dr. Shankar were both “terminated” pursuant to voluntary resignations,
not involuntary terminations like Plaintiffs. See Rotwein Aff.
31

20-23. Aside from his

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 32 of 49

allegation, Plaintiff submits no evidence that these terminations were linked to the comparators
protected statuses. Thus, Plaintiff cannot show pretext through evidence of disparate treatment.
See Wallace, 271 F.3d at 221-22.
Plaintiff also does not establish the Defendants’ reasons for the termination are false or
unworthy of credence. Plaintiffs evidence is insufficient to show that he did not, in fact, violate
workplace rules. See Manaway v. Med. Ctr. OfSoutheast Tex., 430 F. App’x 317, 322 (5th Cir.
2011) (internal quotations and alterations omitted) (“[Plaintiffs] assertion of innocence alone
does not create a factual issue as to the falsity of the employer’s proffered reason.”). In contrast,
there is significant evidence that Defendants’ concerns were sincerely held. Defendants
conducted a department-wide audit into the building access practices of employees, investigating
and disciplining every discrepancy discovered. See Audit Report 9-12. Defendants not only
terminated Plaintiff, but also his faculty-member supervisor for enabling Plaintiffs rule
violations. Rotwein Aff. ]] 20. And, Defendants contacted NIH to preemptively disclose their
concerns that Plaintiffs violations could amount to fraud or waste under the regulations
governing the federal grant money. See Defs.’ Mot. for Summ. J. Ex. B-7 (“NIH Letter”).
Plaintiff points to no countervailing evidence tending to show that Defendants’ concerns were
“not the real reason for the adverse employment action.” See Laxton, 333 F.3d at 578.
Therefore, Plaintiff fails to show that Defendants’ proffered justification is pretextual. See Evans
v. City ofHouston, 246 F.3d 344, 355 (5th Cir. 2001) (“[Plaintiff] cannot survive summary
judgment merely because she disagrees with [the defendant’s] characterization of her
disciplinary history.”).
Plaintiff does argue, however, that Defendants acted contrary to their own institutional
policies in carrying out his termination. Pl.’s Mot. for Summ. J. 7. Evidence that an employer
32

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 33 of 49

did not adhere to internal rules in an adverse employment action can contribute to a pretext
showing. See EEOC v. Tex. Instruments Inc., 100 F.3d 1173, 1182 (5th Cir. 1996). Plaintiff
contends that the TTUHSCEP policy governing terminations, OP 70.31, requires that an
employee’s supervisors initiate, or at least be involved in, “corrective actions,” that termination
not be the first “corrective action” taken, and that notice be given to the employee prior to the
effective date of termination. Pl.’s Mot. for Summ. J. 7 (citing OP 70.31.4, 70.31.1G). Plaintiff
argues that the evidence shows these requirements were not adhered to in his termination. Id.
These arguments ultimately fail, however, because Plaintiff misapplies OP 70.31. First,
while the policy anticipates supervisors initiating corrective actions, not all terminations arise
under the corrective action process. Rather, OP 70.31.1(K) defines “Termination for
Misconduct” separately from OP 70.31.l(J)’s definition of “Formal corrective actions.” Pl.’s
Mot. for Summ. J. Ex. W20 (“OP 70.31”), at 2, ECF No. 113-21.10 Defendants’ evidence
indicates that Plaintiff was not terminated for misconduct “that would be addressed in a
corrective action,” but that Plaintiffs “significant violation” resulted in an outright termination
for misconduct. Court Affidavit ^ 15. While the corrective action provision—OP 70.31.4—does
anticipate that supervisors initiate corrective actions, the termination provision—OP 70.31.6—
states that “supervisors and department officials” are authorized to “request the separation or
termination of an employee.” OP 70.31 at 5-8. Therefore, Dr. Rotwein’s initiation of the

10 Plaintiff raises an evidentiary objection to Defendants’ submission of OP 70.31, and another TTUHSCEP
policy, OP 70.01, attached as Exhibits E-2 and E-3 to Rebecca Salcido’s affidavit in support of Defendants’ Motion
for Summary Judgment. See Pl.’s Mot. to Strike 5. Exhibit E-2 is a 2012 version of OP 70.31 that was replaced
before Plaintiff was employed by TTUHSCEP and therefore never applied to Plaintiff. See Defs.’ Mot. for Summ.
J. Ex. E-2, ECF No. 108-5. Exhibit E-3 is a version of TTUHSCEP OP 70.01 that took effect in 2019, after Plaintiff
was terminated, and therefore also never applied to Plaintiff. See Defs.’ Mot. for Summ. J. Ex. E-3, ECF No. 108-5.
The Court does not rely on OP 70.01, and Plaintiff included the proper version of OP 70.31 in his summary
judgment evidence. And, Defendants sought leave to submit the proper policies in their Motion to Replace
Summary Judgment Exhibits, ECF No. 143. Therefore, Plaintiff’s objections are overruled as moot.
33

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 34 of 49

termination process as the department chair complied with the policy. Second, OP 70.31.7
provides that a “Termination for Misconduct” may be the “only” disciplinary action taken, “or it
may be administered when other corrective actions have not proven effective.” See id at 8.
Thus, while “corrective actions” are a less-punitive option, they are not a prerequisite to a
termination. See id. Lastly, Plaintiff quotes only 70.31.1(G), the definition section’s definition
of “Notice,” in arguing that notice was required prior to his termination. However, in the
substantive notice provision of the policy, OP 70.31.5, there is no requirement that notice be
provided before a termination’s effective date. Id. at 7. And, while notice was not required,
Defendants did attempt to provide Plaintiff with further notice through an in-person meeting.
Outright termination followed Plaintiffs failure to respond to their first invitation and his
rejection of their second invitation. Thus, Plaintiff’s objections do not identify actions contrary
to policy.11
Based on the evidence, a reasonable jury could not find that Defendants’ proffered
justification for the termination is unworthy of credence or that Plaintiffs protected status was
otherwise a motivating factor. Thus, even if Plaintiff had sufficiently established a prima facie
case, he cannot raise a genuine dispute of material fact at the pretext stage of the McDonell
Douglas framework. See, e.g., Austen v. Weatherford Coll., 564 F. App’x 89, 93 (5th Cir. 2014)
(finding the plaintiffs showing insufficient because “[s]he offers no competent summaryjudgment evidence other than her own assertions that the stated reasons for termination were
pretextual.”). Accordingly, Defendant TTUHSCEP is entitled to summary judgment on
11 Even if Plaintiff had identified an inconsistency on any of these points, such evidence alone would be
insufficient to show pretext. There would need to be surrounding evidence linking the internal policy violations to
Plaintiff’s protected status, which remains lacking here. See Tex. Instruments Inc., 100 F.3d at 1182 (internal
quotations omitted) (noting that the employer’s own internal policy violation “does not of itself conclusively
establish that improper discrimination occurred or that a nondiscriminatory explanation for an action is pretextual”
absent some “nexus” to protected status).
34

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 35 of 49

Plaintiffs Title VII discrimination claim and the Individual Defendants are entitled to summary
judgment on Plaintiffs § 1981 claims.
3.

The due process claims

Plaintiff claims, under 42 U.S.C. § 1983, that Defendants deprived him of property and
liberty interests without adequate procedure, violating the Due Process Clause of the Fourteenth
Amendment. Plaintiff argues the evidence entitles him to summary judgment as a matter of law
on these claims. Defendants argue that Plaintiffs claims against the Individual Defendants in
their individual capacities fail on qualified immunity grounds, and the claims against
TTUHSCEP and the Individual Defendants in their official capacities fail on sovereign immunity
grounds. They also argue that the evidence is insufficient for all claims to survive summary
judgment. The Court addresses Plaintiffs due process claim with respect to each set of
Defendants in turn.
a.

The Individual Defendants in their individual capacities

The Individual Defendants argue they are entitled to summary judgment on Plaintiffs §
1983 claims, in their individual capacities, on qualified immunity grounds.
The doctrine of qualified immunity shields government officials from liability “so long as
their conduct ‘does not violate clearly established statutory or constitutional rights of which a
reasonable person would have known.”’ Lincoln v. Turner, 874 F.3d 833, 847 (5th Cir. 2017)
(quoting Mullenix v. Luna, 577 U.S.

, 136 S. Ct. 305, 308 (2015)). When a defendant invokes

qualified immunity, the burden shifts to the plaintiff to demonstrate that the defense does not
apply. Id. A plaintiff seeking to defeat qualified immunity must show: “(1) that the official
violated a statutory or constitutional right, and (2) that the right was ‘clearly established’ at the

35

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 36 of 49

time of the challenged conduct.” Id. at 847-48 (quoting Ashcroft v. al-Kidd, 563 U.S. 731, 735
(2011)).
A clearly established right is one that is “sufficiently clear that every reasonable official
would have understood that what he is doing violates that right.” Id. at 848 (quoting Reichle v.
Howards, 566 U.S. 658, 664 (2012)). This inquiry “does not require a case directly on point, but
existing precedent must have placed the statutory or constitutional question beyond debate.” Id.
(quoting al-Kidd, 563 U.S. at 741). The law can be clearly established despite “notable factual
distinctions between the precedents relied on and the cases then before the Court, so long as the
prior decisions gave reasonable warning that the conduct then at issue violated constitutional
rights.” Id. (quoting Flores v. City ofPalacios, 381 F.3d 391, 399 (5th Cir. 2004)).
The Court first looks to whether the evidence raises a genuine dispute of material fact on
whether the Individual Defendants violated Plaintiffs procedural due process rights, pursuant
either to a property interest or a liberty interest.

i.

Property interest

For the following reasons, Plaintiff fails to show he was deprived of a property interest
when his TTUFISCEP employment was terminated.
To establish a procedural due process violation, Plaintiff must first show he was deprived
of a protected interest. Am. Mfrs. Mut. Ins. Co. v. Sullivan, 536 U.S. 40, 59 (1999). Protected
property interests arise from legitimate claims of entitlement as defined “by existing rules or
understandings that stem from an independent source such as state law.” Bd. ofRegents v. Roth,
408 U.S. 564, 576 (1972); Edionwe v. Bailey, 860 F.3d 287, 292 (5th Cir. 2017) (requiring “more
than a unilateral expectation” for a property interest to arise). In the employment context,
because Texas is an “at-will” employment state, an employer may terminate employment “for
36

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 37 of 49

good cause, bad cause, or no cause at all.” Montgomery Cty. Hosp. Dist. v. Brown, 965 S.W.2d
501, 502 (Tex. 1998). Therefore, a property interest in employment only arises when the
employer “abrogat[es] its right to terminate an employee without cause,” modifying the at-will
status of the employment relationship. See Muncy v. City ofDallas, 335 F.3d 394, 398 (5th Cir.
2003); El Expreso, Inc. v. Zendejas, 193 S.W.3d 590, 594 (Tex. App. 2006).
To modify at-will employment status, “[t]he critical factor ... is whether an employer
has unequivocally indicated a definite intent to be bound not to terminate the employee except
under clearly specified circumstances.” El Expreso, 193 S.W.3d at 594. General and indefinite
statements are not enough; rather, there must be “an agreement to modify” which is “(1)
expressed, rather than implied, and (2) clear and specific.” Id. (internal quotations omitted).
Oral statements alone are insufficient unless they include “a definite, stated intention” to modify
at-will status. Id.
Here, Plaintiff argues he had a property interest in his employment at TTUHSCEP. Pl.’s
Mot. for Summ. J. 12-13. However, there is no question that Plaintiff was hired at TTUHSCEP
as an at-will employee. See Employee Acknowledgment 9 (“Unless otherwise specified, all
employment at [TTUHSCEP] is employment-at-will”); OP 70.31 at 2 (“Employment at Texas
Tech is governed by the employment at will doctrine.... and can be terminated at any time, with
or without cause and with or without notice.”). Therefore, to establish a deprivation of property,
Plaintiffs at-will employment status must have been modified. Muncy, 335 F.3d at 398.
Plaintiff argues that he reached an agreement with Dr. Wu, his supervisor, to modify his
at-will status. During his job interview, Plaintiff asked Dr. Wu about the grant funding
underlying his prospective position. Pl.’s Mot. for Summ. J. Ex. W5 (“Wu Affidavit”) ^ 7, ECF
No. 113-5. Dr. Wu states, “I told Dr. Zeng that his position would be supported by my existing .
37

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 38 of 49

.. grants for at least 2-3 years. This information was revealed to Dr. Zeng to ensure him the
relative stability of his prospective employment.” Id. Further, an additional two-year NIH grant
linked to ZIKA virus research was awarded after Plaintiff began working with Dr. Wu, and Dr.
Wu stated, “Dr. Zeng’s position could be further supported by the ZIKA virus grant.” Id. ^ 11.
From this, Plaintiff argues there was a “mutual agreement and understanding” that Plaintiff
“would continue to have employment in Dr. Wu’s lab so long as funding] from Dr. Wu’s pre­
existing NIH grants and the new ZIKA grant (application written by the plaintiff) is available to
support the plaintiffs position.” Pl.’s Mot. for Summ. J. 13. “Such entitlement constituted the
plaintiffs property interest.” Id.
This evidence does not establish that Plaintiffs at-will employment status was modified.
As Dr. Wu stated, the conversation—which took place prior to the start of Plaintiff s
employment—was meant to inform Plaintiff about the relative stability of his prospective
position. Such an assurance does not “unequivocally indicate a definite intent to be bound not to
terminate the employee except under clearly specified circumstances.” See El Expreso, 193
S.W.3d at 594. It is not an express, clear, and specific agreement to modify the conditions under
which Plaintiff could be terminated. See id. Moreover, given that the alleged agreement was
formed via oral statements, it lacks the required “definite, stated intention” for the oral
statements to be modifying the at-will status of Plaintiff s position. Id. That Plaintiff and Dr.
Wu subsequently wrote and were awarded the ZIKA grant for two additional years of funding
does not overcome these deficiencies. Mere knowledge that a position has enough funding to
continue for a defined time period is not a binding agreement abrogating the employer’s right to
terminate the employee. See Muncy, 335 F.3d at 398. Therefore, there is insufficient evidence

38

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 39 of 49

to raise a genuine dispute of material fact on whether Plaintiff had a property interest in his
employment with TTUHSCEP.
Accordingly, Plaintiff cannot claim a procedural due process violation grounded in the
deprivation of a property interest. See Roth, 408 U.S. at 576; Edionwe, 860 F.3d at 292.
ii.

Liberty interest

Liberty interests can also trigger procedural due process rights. See Bledsoe v. City of
Horn Lake, 449 F.3d 650, 653 (5th Cir. 2006). For the following reasons, Plaintiff fails to show
that a liberty interest arose in the course of his termination from TTUHSCEP.
A liberty interest may arise when a government employee is terminated “amidst
allegations of misconduct,” triggering the employee’s procedural due process rights to notice and
an opportunity to be heard. Id. Not all misconduct terminations of government employees
trigger these procedural rights, however. See id. Rather, liberty interests are infringed “only
when the employee is discharged in a manner that creates a false and defamatory impression
about him and thus stigmatizes him and forecloses him from other employment opportunities.”
Id. (internal quotations omitted); Rayborn v. Bossier Par. Sch. Bd., 881 F.3d 409, 419 (5th Cir.
2018) (internal quotations omitted) (“[Reputation alone is not a constitutionally protected
interest.”). To determine whether the circumstances surrounding a given termination meet this
threshold, the Fifth Circuit relies on a seven-element “stigma-plus-infringement” test. Bledsoe,
449 F.3d at 653. A plaintiff must establish each of the following:
(1) he was discharged; (2) stigmatizing charges were made against him in connection
with the discharge; (3) the charges were false; (4) he was not provided notice or an
opportunity to be heard prior to the discharge; (5) the charges were made public; (6) he
requested a hearing to clear his name; and (7) the employer denied the request.
Id.

39

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 40 of 49

Here, the evidence of the circumstances surrounding Plaintiffs termination do not satisfy
the stigma-plus-infringement test. Plaintiff first points to the formal termination record’s
classification of his firing as “misconducfi’-based. Pl.’s Mot. for Summ. J. 14. This argument
fails the test on multiple elements. First, the termination form identifies the “misconduct” at
issue as a violation of OP 70.06, and the undisputed evidence clearly establishes that Plaintiff
did, in fact, violate TTUHSCEP policy. No liberty interest can arise from this charge because it
is true that Plaintiff committed and was terminated for “misconduct” under TTUHSCEP rules.
See Curtis v. Sowell, 761 F. App’x 302, 306 (5th Cir. 2019) (“The district court did not err in
dismissing [the plaintiffs] stigma-plus-inffingement claim because the statement at issue was
not false.”).
Furthermore, there is no evidence that the termination record was ever made public.
Plaintiff argues a liberty infringement nevertheless occured because “the defendants did not
remove the misconduct stigma from the plaintiffs personnel file” and “the plaintiff must tell
prospective employers that the reason for his separation from TTUHSCEP was misconduct.”
Pl.’s PUF

145. However, the Fifth Circuit has “expressly held that there is no liability when

the agency has carefully kept the charges confidential and the plaintiff caused them to be made
public.” Hausey v. City ofMcKinney, 71 F. App’x 440, 440 (5th Cir. 2003) (internal quotations
omitted). Thus, the termination record does not establish a liberty interest under the stigma-plusinfringement test because the charges were not false and were not publicized.
Plaintiff also points to TTUHSCEP’s subsequent labelling of Plaintiff as “not eligible for
rehire” (“NEFR”) in response to a reference-check inquiry. Pl.’s Mot. for Summ. J. 14-15. The
NEFR label fails the “stigmatizing charges” element of the test. Charges must be more than
“merely adverse” to be stigmatizing. Blackburn v. City ofMarshall, 42 F.3d 925, 936 (5th Cir.
40

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 41 of 49

, 1995). As this Court previously held, charges of NEFR status are not sufficiently adverse to give
rise to a liberty interest. See August 30, 2019, Order 18-19, ECF No. 60 (granting Defendants’
Motion to Dismiss in part). Moreover, this evidence also fails the publication element.
Although the charges were shared with a third-party—the reference-checking service—Plaintiff
himself requested the reference-check. See Pl.’s PUF Tflf 147-50; Defs.’ Resp. to Pl.’s PUF ^
147-48, 150. Thus, Plaintiff also “caused” this charge to be made public, meaning a liberty
interest cannot arise from any alleged stigmatization. See Hausey, 71 F. App’x at 440. Plaintiff
cannot point to evidence which satisfies the stigma-plus-infringement test, and no liberty interest
was infringed by the circumstances surrounding his termination. See Rayborn, 881 F.3d at 419;
Bledsoe, 449 F.3d at 653.
Because Plaintiff had no property interest in his employment with TTUHSCEP, and
because the termination did not infringe on any liberty interest, the evidence cannot establish a
procedural due process violation. And, because Plaintiff does not show a constitutional
violation, the Individual Defendants in their individual capacities are entitled to qualified
immunity and, therefore, summary judgment. See Lincoln, 874 F.3d at 847—48.
b.

TTUHSCEP and the Individual Defendants in their official
capacities

Defendants argue that TTUHSCEP and the Individual Defendants in their official
capacities are entitled to summary judgment on sovereign immunity grounds. The Eleventh
Amendment shields states and their agencies from suits for retroactive monetary relief, unless
immunity is abrogated by Congress or waived by the state. K.P. v. LeBlanc, 627 F.3d 115, 124
(5th Cir. 2010). TTUHSCEP and its officials are entitled to this immunity to the same extent as
the State of Texas. See Nelson, 535 F.3d at 320; United States v. Tex. Tech. Univ., 171 F.3d 279,
41

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 42 of 49

289 n.14 (5th Cir. 1999). Congress has not abrogated sovereign immunity for § 1983 claims.
Clark v. Tarrant County, 798 F.2d 736, 743 (5th Cir. 1986). And, while Defendants waived
sovereign immunity from suit by removing to this Court, they have not waived their sovereign
immunity defense against liability. See Spooner v. Jackson, 251 F. App’x 919, 924 (5th Cir.
2007); Meyers ex rel. Benzing, 410 F.3d at 248.
However, as explained above, Plaintiffs claims for prospective injunctive relief pursuant
to Ex Parte Young are not foreclosed. See, e.g., Hundall v. Univ. of Tex. at El Paso, No. EP-13CV-00365-DCG, 2014 WL 12496895, at *5-6 (W.D. Tex. Feb. 21, 2014) (discussing the
defendants’ waiver of sovereign immunity from suit via removal, then considering the plaintiffs
Ex Parte Young argument for § 1983 liability against the defendants’ sovereign immunity
defense from liability). On the merits—as analyzed above regarding the Individual Defendants
in their individual capacities—the evidence does not raise a genuine dispute of material fact as to
whether Plaintiffs procedural due process rights were violated. Ultimately, then, TTUHSCEP
and the Individual Defendants in their official capacities are entitled to summary judgment on
Plaintiffs § 1983 claims.
4.

The tort claims

Plaintiff brings defamation and tortious interference claims under Texas state tort law
against the Individual Defendants. Plaintiff argues the Individual Defendants committed
defamation by labelling him as terminated for misconduct and NEFR. Further, Plaintiff claims
that the misconduct and NEFR labels were communicated to potential employers, amounting to
tortious interference with prospective employment. Plaintiff concludes that the evidence entitles
him to summary judgment as a matter of law on these claims. Defendants argue that Plaintiffs

42

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 43 of 49

claims are barred by immunity under the TTCA, and that the evidence is insufficient for all
claims to survive summary judgment.
All tort claims against a governmental entity and its employees are assumed to arise
under the TTCA. Mission Consol Indep. Sch. Dist. v. Garcia, 253 S.W.3d 653, 659 (Tex. 2008).
Torts against government employees for conduct within the scope of their employment are
regarded as official capacity claims only. See Wilkerson v. Univ. ofN. Tex. ex rel. Bd. of
Regents, 878 F.3d 147, 158-59 (5th Cir. 2017) (citing Tex. Civ. Prac. & Rem. Code §
101.106(f)). And, government employees in their official capacities are immune from liability
because the TTCA “mandates plaintiffs to pursue lawsuits against governmental units rather than
their employees.” Id.
Plaintiff seeks to avoid TTCA immunity by arguing the Individual Defendants’ conduct
went beyond the scope of employment or otherwise was ultra vires. Conduct is within the scope
of employment when there is “a connection between the employee’s job duties and the alleged
tortious conduct.” See id. at 160 (internal quotations omitted). This remains true even “if the
employee perform[ed] negligently or [was] motivated by ulterior motives or personal animus.”
See id. (internal quotations omitted). Here, there is a clear connection between the conduct at
issue in Plaintiffs tort claims—essentially, how the Individual Defendants categorized and
decided his termination—and the Individual Defendants’ job duties as administrators of
Plaintiffs workplace. Therefore, the conduct was within the scope of governmental employment
and the Individual Defendants are entitled to immunity under the TTCA. See id. at 158-60.
As for the ultra vires exception, TTCA governmental immunity does not bar “suits to
require state officials to comply with statutory or constitutional provisions.” City of El Paso v.
Heinrich, 284 S.W.3d 366, 372 (Tex. 2009). To fall within the exception, the evidence must
43

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 44 of 49

prove that the officer “has violate[d] statutory or constitutional provisions by acting without legal
authority or by failing to perform a purely ministerial act.” Lazarides v. Farris, 367 S.W.3d 788,
800 (Tex. App. 2012). Here, none of the evidence Plaintiff points to—purportedly showing that
Defendants did not follow TTUHSCEP policy—shows that the Individual Defendants acted
contrary to law or violated the Constitution. See Pl.’s Mot. for Summ. J. 17-18. The evidence
does not establish violations of Title VII, § 1981, or the Due Process Clause by the Individual
Defendants. Thus, there is no evidence that Defendants acted contrary to law or without legal
authority when terminating Plaintiff. See Heinrich, 284 S.W.3d at 372; Lazarides, 367 S.W.3d
at 800.
Plaintiff also argues the Individual Defendants “fail[ed] to perform a purely ministerial
act” by refusing to remove Plaintiffs “misconduct” and “NEFR” classifications. Pl.’s Mot. for
Summ. J. 18. Ministerial acts are those “where the law prescribes and defines the duties to be
performed with such precision and certainty as to leave nothing to the exercise of discretion or
judgment.” Sw. Bell Tel., L.P. v. Emmett, 459 S.W.3d 578, 587 (Tex. 2015). Plaintiff argues
that because the Texas Workforce Commission determined that he was eligible for
unemployment benefits—finding he did not commit “misconduct”—Defendants were obliged to
remove the “misconduct” label from Plaintiff s record. Pl.’s Mot. for Summ. J. 18. However,
the Texas Workforce Commission applies the Texas Unemployment Compensation Act—and its
definition of “misconduct”—when determining benefits eligibility. See, e.g., Murray v. Tex.
Workforce Comm ’n, 337 S.W.3d 522, 524 (Tex. App. 2011). The Commission’s determination
about “misconduct” under Texas law did not impose a legal obligation on Defendants to alter
their own misconduct or NEFR determinations under TTUHSCEP policy. Plaintiff identifies no
other legal obligations requiring Defendants to expunge Plaintiffs record. See Pl.’s Mot. for
44

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 45 of 49

Summ. J. 18. Therefore, Defendants’ decisions to label Plaintiff as terminated for “misconduct”
and NEFR, and their decisions not to remove those labels upon Plaintiffs request, were
discretionary. Plaintiff cannot show they acted ultra vires by failing to perform a ministerial act.
See Heinrich, 284 S.W.3d at 372 (“To fall within this ultra vires exception, a suit must not
complain of a government officer's exercise of discretion.”).
Ultimately, the allegedly tortious conduct at issue was within the scope of governmental
employment and was not ultra vires and, therefore, TTCA immunity applies. See Lazarides, 367
S.W.3d at 800; Heinrich, 284 S.W.3d at 372; Wilkerson, 878 F.3d at 159-60. Defendants are
entitled to summary judgment on Plaintiffs defamation and tortious interference claims.
5.

Plaintiffs pending motions
i.

Motion for supplemental discovery

On February 6, 2020, roughly six weeks after the parties each filed motions for summary
judgment, Plaintiff filed a Motion for Supplement Discovery, ECF No. 142. Plaintiff seeks
further discovery into Ms. Montoya’s “timesheets and the records of her access card use for the
time period from October 16, 2017 to February 28, 2018,” and the same as for Mr. Lopez “from
October 16, 2017 to August 31,2018.” Id. at 2. Plaintiff asserts that records for these periods
were not included in the audit documents produced by Defendants. Id. He states that
supplemental discovery is warranted because records from these time periods “are critical to
assessing the seriousness of [the comparators’] alleged violation of university policy, which in
turn is necessary for rebutting the defendants’ argument that [the comparators] were not similarly
situated employees.” Id.
Rule 56(d) of the Federal Rules of Civil Procedure provides that when a nonmovant
“shows by affidavit or declaration that, for specified reasons, it cannot present facts essential to
45

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 46 of 49

justify its opposition, the court may ... allow time to obtain affidavits or declarations or to take
discovery.” Fed. R. Civ. P. 56(d). Plaintiff attaches an affidavit attesting that the requested
discovery “is critical to the assessment of the seriousness of [the comparators’] alleged
violations] of university policy.” Mot. for Suppl. Disc. Ex. W64, ECF No. 142-1. Plaintiff
explains further, in his Reply, ECF No. 149, to Defendants’ Response in Opposition to
Supplemental Discovery, ECF No. 148, that the purpose of the additional discovery would be “to
know the actual number of [the comparators’] claimed workdays without access card use,” to
compare to the seriousness of Plaintiff s violation. Pl.’s Reply to Defs.’ Resp. to Pl.’s Mot. for
Supp. Disc. 2-3.
To warrant supplemental discovery, the nonmovant must “set forth a plausible basis for
believing that specified facts, susceptible of collection within a reasonable time frame, probably
exist and indicate how the emergent facts, if adduced, will influence the outcome of the pending
summary judgment motion.” Am. Family Life Assurance Co. of Columbus v. Biles, 714 F.3d
887, 894 (5th Cir. 2013) (internal quotation marks omitted). The Fifth Circuit “has long
recognized” that a nonmovant’s “entitlement to discovery prior to a ruling on a motion for
summary judgment is not unlimited, and may be cut off when the record shows that the
requested discovery is not likely to produce the facts needed ... to withstand a motion for
summary judgment.” Washington v. Allstate Ins. Co., 901 F.2d 1281, 1285 (5th Cir. 1990).
Moreover, “[i]f the requesting party ‘has not diligently pursued discovery ... she is not entitled
to relief under Rule 56(d).” McKay v. Novartis Pharm. Corp., 751 F.3d 694, 700 (5th Cir.
2014).
Here, Plaintiffs affidavit specifies the evidence sought from supplemental discovery and
what purpose that evidence would serve. See Biles, 714 F.3d at 894. However, by Plaintiffs
46

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 47 of 49

own representation, the requested discovery would, at most, show that Ms. Montoya and Mr.
Lopez reported an even greater number of workdays without access badge use than was reflected
in the audit report produced by Defendants. As explained above, even if Ms. Montoya and Mr.
Lopez each had discrepancies equal to or greater than Plaintiffs 103-119 days, they would still
not be similarly situated to Plaintiff because their underlying rule violations are not nearly
identical. Ms. Montoya and Mr. Lopez’s rule violations were “not having and using their badges
appropriately,” whereas Plaintiff was terminated for working from home without permission and
failing to conduct any laboratory-based work for several months. Plaintiff has not requested
supplemental discovery which could raise a factual dispute on the nature of the comparators’
underlying violations; rather, he would dispute the duration of those violations. Therefore, the
information requested is not likely to produce facts needed to withstand summary judgment. See
Washington, 901 F.2d at 1285.
Furthermore, Plaintiff did not diligently pursue the requested information in the discovery
period, which ran from May 29, 2019, to November 18, 2019. The audit reports about Ms.
Montoya and Mr. Lopez were produced during that time period and Plaintiff relied on that
evidence in his Motion for Summary Judgment, initially filed on December 20, 2019. Even if it
was Defendants’ Motion for Summary Judgment which caused Plaintiff to recognize his need for
further discover, that Motion was filed on December 18, 2019. Plaintiff did not file his Rule
56(d) motion until February 6, 2020. In the meantime, Plaintiff filed his Response in Opposition
to Defendants’ Motion for Summary Judgment—in which he attempted to rebut Defendants’
arguments about his comparators not qualifying as similarly situated—on January 13, 2020.
There is no reason the requested discovery would have been unattainable during the almost sixmonth period when discovery was open. Therefore, Plaintiff did not “diligently pursue” the
47

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 48 of 49

discovery he now seeks and relief under Rule 56(d) is not warranted. See McKay, 751 F.3d at
700. For these reasons, Plaintiffs motion for supplemental discovery is denied.

ii.

Motion for sanctions

Additionally, Plaintiff moves for sanctions or an adverse inference against Defendants for
alleged spoliation. PI.’s Am. Mot. for Sanctions, ECF No. 124. Plaintiff claims Defendants
deleted Plaintiffs work-email account history in violation of Defendants’ duty to preserve
evidence in reasonable anticipation of litigation. Id. at 1-2. In response, Defendants put forward
evidence that Plaintiffs emails were deleted five weeks after his termination pursuant to
TTUHSCEP policy. Defs.’ Resp. to Pl.’s Am. Mot. for Sanctions 3, ECF No. 128. The deletion
occurred several months before Defendants were put on notice of possible litigation by
Plaintiffs EEOC charge. See id. at 2-3. Therefore, Plaintiff cannot make a showing of “bad
faith” as required for sanctions or an adverse inference based on spoliation. See Guzman v.
Jones, 804 F.3d 707, 713 (5th Cir. 2015); Russell v. Univ. of Tex. ofPermian Basin, 234 F.
App’x 195, 208 (5th Cir. 2007). Plaintiffs Motion for sanctions or an adverse inference is
denied.
III.

CONCLUSION
For the foregoing reasons, Defendants’ Motion for Summary Judgment, ECF No. 108, is

GRANTED, and Plaintiffs Motion for Summary Judgment, ECF No. 113, is DENIED.
Plaintiffs Motion for Sanctions, ECF No. 124, Plaintiffs Motion to Strike, ECF No. 140, and
Plaintiffs Motion for Supplemental Discovery, ECF No. 142, are DENIED.
IT IS FURTHER ORDERED that all other pending motions are DENIED as moot.
The Clerk shall close the case.
SO ORDERED.
48

Case 3:19-cv-00099-KC Document 152 Filed 03/04/20 Page 49 of 49

SIGNED this 4th day of March, 2020.

49

Additional material
from this filing is
available in the
Clerk's Office.

